<html>
<title> - U.N. SANCTIONS AFTER OIL-FOR-FOOD: STILL A VIABLE DIPLOMATIC TOOL?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
   U.N. SANCTIONS AFTER OIL-FOR-FOOD: STILL A VIABLE DIPLOMATIC TOOL?

=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 2, 2006

                               __________

                           Serial No. 109-175

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

29-792 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
              R. Nicholas Palarino, Ph.D., Staff Director
              Elizabeth Daniel, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 2, 2006......................................     1
Statement of:
    Bolton, John R., Ambassador, Permanent U.S. Representative to 
      the United Nations.........................................    64
    Christoff, Joseph A., Director, International Affairs and 
      Trade Team, U.S. Government Accountability Office; Carne 
      Ross, director, Independent Diplomat; and George A. Lopez, 
      senior fellow and professor of political science, the Joan 
      B. Kroc Institute for International Peace Studies, 
      University of Notre Dame...................................   103
        Christoff, Joseph A......................................   103
        Lopez, George A..........................................   147
        Ross, Carne..............................................   124
Letters, statements, etc., submitted for the record by:
    Bolton, John R., Ambassador, Permanent U.S. Representative to 
      the United Nations, prepared statement of..................    69
    Christoff, Joseph A., Director, International Affairs and 
      Trade Team, U.S. Government Accountability Office, prepared 
      statement of...............................................   105
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        H.R. 282.................................................     7
        Prepared statement of....................................    58
        Various articles.........................................    26
    Lopez, George A., senior fellow and professor of political 
      science, the Joan B. Kroc Institute for International Peace 
      Studies, University of Notre Dame, prepared statement of...   149
    Ross, Carne, director, Independent Diplomat, prepared 
      statement of...............................................   127
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, letter dated April 15, 2004...........    92


   U.N. SANCTIONS AFTER OIL-FOR-FOOD: STILL A VIABLE DIPLOMATIC TOOL?

                              ----------                              


                          TUESDAY, MAY 2, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Kucinich, Van Hollen, 
Lynch, and Waxman, ex officio.
    Staff present: R. Nicholas Palarino, Ph.D., staff director; 
Robert A. Briggs, analyst; Elizabeth Daniel, professional staff 
member; Phil Barnett, minority staff director/chief counsel; 
Kristin Amerling, minority general counsel; David Rapallo, 
minority chief investigative counsel; Andrew Su, minority 
professional staff member; and Jean Gosa, minority assistant 
clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``U.N. Sanctions After Oil-for-
Food: Still a Viable Diplomat Tool?'' is called to order.
    There is no guarantee United Nations management reforms 
will ensure future sanctions will succeed, but the lack of 
management reforms will certainly guarantee they fail.
    U.N. Security Council Resolution 661 imposed comprehensive 
sanctions on Iraq after the 1990 invasion of Kuwait. Over the 
next 4 years, proposals to ease, rather than enforce, the 
sanctions dominated deliberations of the 661 committee composed 
of all permanent and rotating Security Council members.
    From its inception in 1996, the United Nations Oil-for-Food 
Program was susceptible to political manipulation and financial 
corruption. The program lacked United Nations oversight and 
accountability, and trusted Saddam Hussein with sovereign 
control over billions of dollars of oil sales and commodity 
purchases. This situation, of course, invited illicit premiums, 
kickbacks and other forms of corruption.
    How is a well-intentioned program designed and administered 
by the world's preeminent multinational organization so 
systematically and thoroughly pillaged? The answers emerging 
from investigations by the Volcker Commission, the Government 
Accountability Office and from this committee and other 
congressional committees point to a debilitating combination of 
political paralysis and a lack of oversight that metastasize 
behind a veil of official secrecy.
    Two years ago, this subcommittee first heard how Saddam 
Hussein's regime manipulated the Oil-for-Food Program. Our 
second hearing addressed problems the Oil-for-Food contract 
inspectors faced in dealing with both the Hussein regime and 
the United Nations. The third dealt with internal deliberations 
at the U.N. and willful ignorance of the Security Council 
members toward the corruption taking place.
    At today's hearing we will consider implications of this 
scandal for future U.N. sanctions.
    In the wake of the Oil-for-Food program scandal we ask, how 
can the U.N. be expected to properly administer future 
sanctions against states such as Sudan or Iran which commit 
vicious crimes against their own people and threaten 
international peace and stability?
    Sanctions are essential measures used to maintain or 
restore international peace and security. Sanctions are an 
alternative to armed conflict. The penalty or price applied to 
a state must outweigh the advantages of wrongful behavior and 
lead the target state to rescind its behavior.
    No sanction program is effective unless its objectives are 
widely shared and supported among key U.N. member-states. And 
we have learned from the Oil-for-Food scandal oversight of any 
sanction program is absolutely essential.
    The GAO noted the U.N. Office of Internal Oversight 
Services, the Inspector General of the United Nations, must be 
an independent operation and autonomous. Aggressive independent 
oversight ferrets out waste, abuse and fraud in huge 
bureaucracies and uncovers illicit activities.
    Secretary General Kofi Annan, in March of this year, issued 
a report setting out sweeping administrative reforms. If these 
reforms fail in the face of opposition, the U.N. is vulnerable 
to continued scandal. If implemented, these and other reforms 
will lend credibility to the United Nations and its ability to 
enforce its sanctions regime.
    We are joined today by our Permanent Representative to the 
United Nations, Ambassador John Bolton, who will share his 
views on prospects for U.N. management reform. We are eager to 
hear his views about how sanctions worked in Iraq and how they 
will work in the future, particularly in confronting the 
genocide in Sudan and deterring Iran's nuclear program.
    On our second panel, the Government Accountability Office, 
the former U.N. diplomat and an advisor to the U.N. will 
provide their perspectives and recommendations. We look forward 
all their testimony.
    I will just again say, Mr. Bolton, it is an honor to have 
you here, and I'm going to call on the other Members for their 
statements.
    Mr. Kucinich.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 29792.001
    
    [GRAPHIC] [TIFF OMITTED] 29792.002
    
    [GRAPHIC] [TIFF OMITTED] 29792.003
    
    Mr. Kucinich. Thank you very much, Mr. Chairman, for 
holding this hearing.
    I want to acknowledge the presence of our ranking Democrat 
for the full committee, Henry Waxman, and thank him for the 
cooperation and honor that he has given me of my being the 
ranking member of this subcommittee.
    Welcome, Mr. Bolton.
    As you know, a few days ago, the Congress of the United 
States passed H.R. 282, the Iran Freedom Support Act, which 
essentially articulated structured sanctions to be imposed on 
Iran. I am going to ask that this be submitted to the record as 
part of the presentation that I am making.
    Mr. Shays. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 29792.004
    
    [GRAPHIC] [TIFF OMITTED] 29792.005
    
    [GRAPHIC] [TIFF OMITTED] 29792.006
    
    [GRAPHIC] [TIFF OMITTED] 29792.007
    
    [GRAPHIC] [TIFF OMITTED] 29792.008
    
    [GRAPHIC] [TIFF OMITTED] 29792.009
    
    [GRAPHIC] [TIFF OMITTED] 29792.010
    
    [GRAPHIC] [TIFF OMITTED] 29792.011
    
    [GRAPHIC] [TIFF OMITTED] 29792.012
    
    [GRAPHIC] [TIFF OMITTED] 29792.013
    
    [GRAPHIC] [TIFF OMITTED] 29792.014
    
    [GRAPHIC] [TIFF OMITTED] 29792.015
    
    [GRAPHIC] [TIFF OMITTED] 29792.016
    
    [GRAPHIC] [TIFF OMITTED] 29792.017
    
    [GRAPHIC] [TIFF OMITTED] 29792.018
    
    [GRAPHIC] [TIFF OMITTED] 29792.019
    
    [GRAPHIC] [TIFF OMITTED] 29792.020
    
    [GRAPHIC] [TIFF OMITTED] 29792.021
    
    Mr. Kucinich. We're at a critical moment for U.S. policy at 
the United Nations, particularly regarding Iran. Just last 
Friday marked the Security Council's deadline for Iran to 
freeze all nuclear fuel enrichment and the beginning of an 
inevitable struggle at the Security Council over what to do to 
contain Iran's nuclear ambitions.
    We've seen this kind of struggle at the Security Council 
before. The United States spent much time in 2002 pressuring 
the Security Council to take action against Iraq to contain its 
supposed weapons of mass destruction. Finally, on November 8, 
2002, the Council approved Resolution 1441, which imposed tough 
new arms inspections in Iraq and promised serious consequences 
to be determined by the Security Council if Iraq violated the 
resolution.
    Even though Iraq did submit a weapons declaration and began 
destroying its Al Samoud missiles as instructed by U.N. 
Inspector Hans Blix, serious consequences were imposed on the 
country anyway.
    It was the United States, however, and not the Security 
Council, that determined those consequences for Iraq when 
President Bush went to war against Iraq on March 20, 2003.
    Experience in Iraq has proven that this administration will 
act unilaterally outside the mandate of the Security Council, 
thereby rendering the work of the Council almost irrelevant. At 
the same time, however, experience has indicated that this 
administration will use the U.N. to make its case for war to 
the world community.
    In the coming weeks and months I think it is fairly 
predictable that we will see the United States' case for war 
against Iran unfold at the U.N. I think it is highly probable 
that the administration has already made the decision to go to 
war against Iran. There are already U.S. troops inside Iran.
    I want to repeat that: There are already U.S. troops inside 
Iran. On April 14th, retired Colonel Sam Gardner related on CNN 
that the Iranian ambassador to the IAEA reported to him that 
the Iranians have captured dissident forces who have confessed 
to working with U.S. troops in Iran. Earlier in the week 
Seymour Hersh reported in the New Yorker that a U.S. source had 
told him that the U.S. Marines were working in the Baluchis, 
Azeris and Kurdish regions of Iran. On April 10th, the Guardian 
reported that Vincent Cannistraro, a former CIA 
counterterrorism chief, said that covert military action in the 
form of Special Forces troops identifying targets and aiding 
dissident groups is already under way and that it had been 
authorized.
    And Mr. Chairman, I have these articles that I've cited for 
the record, if I may insert them without objection.
    Mr. Shays. We will insert them in the record without 
objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 29792.022
    
    [GRAPHIC] [TIFF OMITTED] 29792.023
    
    [GRAPHIC] [TIFF OMITTED] 29792.024
    
    [GRAPHIC] [TIFF OMITTED] 29792.025
    
    [GRAPHIC] [TIFF OMITTED] 29792.026
    
    [GRAPHIC] [TIFF OMITTED] 29792.027
    
    [GRAPHIC] [TIFF OMITTED] 29792.028
    
    [GRAPHIC] [TIFF OMITTED] 29792.029
    
    [GRAPHIC] [TIFF OMITTED] 29792.030
    
    [GRAPHIC] [TIFF OMITTED] 29792.031
    
    [GRAPHIC] [TIFF OMITTED] 29792.032
    
    [GRAPHIC] [TIFF OMITTED] 29792.033
    
    [GRAPHIC] [TIFF OMITTED] 29792.034
    
    [GRAPHIC] [TIFF OMITTED] 29792.035
    
    [GRAPHIC] [TIFF OMITTED] 29792.036
    
    [GRAPHIC] [TIFF OMITTED] 29792.037
    
    [GRAPHIC] [TIFF OMITTED] 29792.038
    
    [GRAPHIC] [TIFF OMITTED] 29792.039
    
    [GRAPHIC] [TIFF OMITTED] 29792.040
    
    [GRAPHIC] [TIFF OMITTED] 29792.041
    
    [GRAPHIC] [TIFF OMITTED] 29792.042
    
    [GRAPHIC] [TIFF OMITTED] 29792.043
    
    [GRAPHIC] [TIFF OMITTED] 29792.044
    
    [GRAPHIC] [TIFF OMITTED] 29792.045
    
    [GRAPHIC] [TIFF OMITTED] 29792.046
    
    [GRAPHIC] [TIFF OMITTED] 29792.047
    
    [GRAPHIC] [TIFF OMITTED] 29792.048
    
    [GRAPHIC] [TIFF OMITTED] 29792.049
    
    [GRAPHIC] [TIFF OMITTED] 29792.050
    
    [GRAPHIC] [TIFF OMITTED] 29792.051
    
    [GRAPHIC] [TIFF OMITTED] 29792.052
    
    Mr. Kucinich. We also note from the reports that the United 
States is supporting military activity in Iran by Iranian 
antigovernment insurgent groups, some of which are operating 
from U.S.-occupied Iraq, such as terrorist group Mujahedin-e 
Khalq, MEK. An article published by Newsweek magazine on 
February 14, 2005, confirms cooperation between U.S. Government 
officials and the MEK. The article describes how, ``The 
administration is seeking to call useful MEK members as 
operatives for use against Iran.''
    Furthermore, an article by Jim Lobe published on 
antiwar.com on February 11, 2005, claims that according to 
Philip Giraldi, a former CIA official and source about this 
subject in the American Conservative Magazine, U.S. Special 
Forces have been directing members of the MEK in carrying out 
reconnaissance and intelligence collection in Iran since the 
summer of 2004.
    Even a statement attributed to Ambassador Bolton, which I 
would like elaboration on today, seems to confirm the U.S. 
policy for Iran is war.
    According to an article published April 10, 2006, in the 
Guardian, Ambassador Bolton told British parliamentarians that 
he believes military action could halt or at least set back the 
Iranian nuclear program by striking at its weakest point.
    U.S. policy for Iran advocates regime change, not behavior 
change. We should expect that even if Iran decides to negotiate 
with the United States Or other Security Council members over 
its nuclear program, U.S. policy promoting war in Iran will 
remain steadfast. When Iraq destroyed its missiles and 
submitted its weapons declaration, abiding by Security Council 
Resolution 1441, the administration decided to unilaterally 
attack Iraq anyway. This administration is reckless in this 
regard.
    It is imperative that Congress exercise its oversight on 
the administration's plans for war with Iran before our country 
is immersed in another quagmire, with more U.S. casualties, 
diminished national security and a greater financial burden. I 
think, therefore, this committee, this oversight committee, is 
privileged to have Ambassador Bolton with us here today. I have 
several questions for him today regarding the administration's 
plans for Iran, and I look forward to his candid answers.
    I want to thank the Ambassador for being with us, thank 
Chairman Shays for holding this hearing. If we're going to 
determine the effectiveness of sanctions, we also need to look 
at those sanctions in tandem with the U.S. policy with respect 
to the use of our military. Thank you very much.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] 29792.053

[GRAPHIC] [TIFF OMITTED] 29792.054

[GRAPHIC] [TIFF OMITTED] 29792.055

[GRAPHIC] [TIFF OMITTED] 29792.056

[GRAPHIC] [TIFF OMITTED] 29792.057

    Mr. Shays. I'd like to thank the gentleman.
    I think, Ambassador, you know that you're here for the Oil-
for-Food Program and the United Nations, but it might go in 
other directions; and obviously you should feel free to respond 
to any questions that you feel that you have knowledge about or 
expertise.
    Mr. Waxman has told me he'd like to add 3 minutes to his 5-
minute questioning by forgoing his statement. I'll just 
acknowledge that the ranking member of the full committee is 
here, and then at this time would----
    Mr. Waxman. I just welcome Ambassador Bolton.
    Good to see you.
    Mr. Shays. And at this point, the Chair would recognize Mr. 
Lynch from Massachusetts.
    Welcome, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank you. I 
know this is the fourth hearing we've had on this issue.
    I also want to thank Ranking Member Waxman, and Mr. 
Kucinich as well, for staying on this issue.
    Mr. Ambassador, thank you for your willingness to help this 
subcommittee with its work. And at the outset, I'd like to say 
that there have been grave disclosures in terms of our failings 
at the U.N. with regard to the Oil-for-Food program. And it 
depends on whose figures you follow.
    GAO has estimated that $10 billion in illicit revenues, 
kickbacks and so forth went to the Iraqi Government under 
Saddam Hussein. As well, the Congressional Research Service 
determines that about $12.8 billion went to the same regime. 
And there are great misgivings about our ability to use 
sanctions as a proper tool for statecraft in the future.
    We don't have a whole lot of options here; we don't have a 
whole lot of tools to use in terms of an alternative to 
military intervention. So this causes us great concern that the 
United Nations, in administering this program, in doing 
oversight of this program, allowed this to happen, and that 
perhaps it was from the very outset, by giving Saddam Hussein 
so much power, we empowered his regime to choose those 
countries whom he would deal with; we allowed him to negotiate 
the price of these contracts; we put him in a position where he 
was able to steal and skim from these contracts.
    What we're looking for here is an answer to the question of 
whether or not, in the future, sanctions such as these in the 
Oil-for-Food program are at all salvageable or at all usable, 
and whether enough reforms have been adopted by the U.N. In 
light of what has happened here with the Iraqi Oil-for-Food 
program; whether those reforms will be effective to prevent the 
collapse that we have seen and the tremendous cost not only on 
the Iraqi people, but on U.S. taxpayers, and the U.N.'s 
credibility most of all.
    I yield back. Thank you.
    Mr. Shays. Thank you. I thank the gentleman.
    At this time, the Chair would recognize Mr. Van Hollen.
    Welcome, Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing, and also thank Mr. Kucinich and 
Mr. Waxman for their leadership.
    Welcome, Ambassador Bolton. It's good to have you here, and 
I look forward to your testimony. I'm interested in some of the 
issues that have already been raised by my colleagues here, 
especially the extent to which you think sanctions can be 
effective in the case of Iran and Sudan.
    I think experience tells us that sometimes sanctions have 
been successful as a tool of foreign policy and sometimes they 
haven't. It's been on a case-by-case basis, depending on the 
circumstances, including both whether or not we're able to get 
the key trading partners of a particular country to cooperate 
together, and the extent--of course, the extent to which the 
country which we seek to impose sanctions on, the extent to 
which that country is vulnerable to sanctions and their 
economy.
    And I guess one of the questions that I hope you will 
answer either in your testimony or your answers is, if we're 
not successful in the case of Iran in getting the Security 
Council to take some action that would authorize collective 
action, economic sanctions, what are the prospects of getting a 
group of countries together outside that framework to impose 
sanctions; and how effective would it be in the absence of an 
official Security Council action?
    The same holds true with Sudan. If we're unable to get 
sanctions imposed on Sudan because of the reluctance of the 
Chinese or the Russians--those two players are, of course, key 
in the Iran case as well--how successful do you think economic 
sanctions could be if you put together a so-called ``coalition 
of the willing for sanctions'' in the case of Sudan?
    So both the case of Sudan and Iran I'm interested in, and 
hopefully we will get collective action at the Security Council 
level. But if that fails, how effective do you think economic 
sanctions could be?
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    At this time, seeing no other Members, we will invite the 
Honorable John R. Bolton to give testimony.
    As you know, Ambassador, we swear in all our witnesses. 
There is only one person we never swore in and that was Senator 
Byrd, and I chickened out.
    [Witness sworn.]
    Mr. Shays. Ambassador, ordinarily we would have a 5-minute 
rule, but all the Members want you to make your statement to 
the extent that you want to make it, and we don't have a clock 
on.

    STATEMENT OF JOHN R. BOLTON, AMBASSADOR, PERMANENT U.S. 
              REPRESENTATIVE TO THE UNITED NATIONS

    Ambassador Bolton. Thank you very much, Mr. Chairman.
    I would ask that my prepared statement be submitted for the 
record, and perhaps I could try and make a few remarks 
effectively, in summary.
    Mr. Shays. Well, with that in mind, then, let me just take 
care of this business right now and ask unanimous consent that 
all members of the subcommittee be permitted to place an 
opening statement in the record, and the record will remain 
open for 3 days for that purpose, and without objection.
    And I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record; 
and without objection so ordered.
    Say whatever you would like, sir. Thank you.
    Ambassador Bolton. Thank you very much, Mr. Chairman.
    Let me begin, if I could, by thanking you and the 
subcommittee for holding this hearing. I think, Mr. Chairman, 
that your leadership in pursuing the implications of the Oil-
for-Food scandal through the work of the subcommittee has been 
critical in helping to uncover some of the aspects of how the 
program was administered and, indeed, affecting even the 
investigation that former Federal Reserve Chairman Paul Volcker 
undertook. And I think it's been a very valuable example of 
effective congressional oversight, and I welcome the fact that 
you've held this many hearings.
    I hope that you and the subcommittee will continue your 
work because the exposure of some of these problems, which in 
many respects seem technical and complex and hard to 
understand, I think, is important for the American people so 
that Congress' efforts to penetrate some of these problems can 
be quite important.
    The issue of the Iraq sanctions is something that has been 
a matter of concern to me for a long time; in fact, since I was 
Assistant Secretary of State for International Organizations 
during the Bush One administration when the Security Council 
adopted Resolution 661, and then a few days later adopted 
Resolution 665, authorizing the use of force to ensure that 
Iraq complied with the sanctions.
    And even after President Bush left office, I continued to 
watch the development of the sanctions program and the Oil-for-
Food Program as well.
    So I think that this is an important case study. You don't 
often get in international affairs such a clear example of a 
program that started off in one direction and that veered badly 
in the wrong direction and eventually ended up not only not 
providing the kind of consequences that were originally 
envisioned for it, but actually ended up perversely supporting 
Saddam Hussein's regime and exposing the U.N. to well-justified 
criticism for mismanagement and corruption.
    And we start from the proposition that the President's 
efforts at reform at the U.N. are designed to fundamentally 
change the way the organization operates, to make it possible 
for the United States and other governments to entrust the 
United Nations with important responsibilities in international 
affairs.
    Louise Frechette, the former Deputy Secretary General of 
the United Nations, who just recently left office, said last 
year, ``Personally, I hope to God we never get another Oil-for-
Food program or anything approaching that kind of 
responsibility.''
    Let me say, we don't agree with Deputy Assistant Secretary 
Frechette. It may well be necessary for the U.N. to administer 
a complex program of sanctions in humanitarian assistance.
    We're looking now at the extension of the U.N. mission in 
Sudan to the Darfur region, what will result in substantial 
enhancement not only of the size of the peacekeeping operation, 
but in efforts to undertake more effectively the humanitarian 
and relief operations and, eventually, the reconstruction and 
development operations that the Darfur region so desperately 
needs. We need an effectively functioning U.N. We need a U.N. 
that can handle major sanctions programs. We need a U.N. that 
can carry out relief and development.
    That's why the President has laid the emphasis that he has 
on reforms. So that this question of sanctions and the question 
of the Oil-for-Food program are very much on the table right 
now; and it's important we understand the implications of the 
Oil-for-Food program scandal and what that means for the 
future.
    And I really think that the work that Chairman Paul Volcker 
did is important not only for the mismanagement and corruption 
that he uncovered in the Oil-for-Food program, but the lessons 
and the insights that Chairman Volcker derived from his work. 
And I've had the occasion to speak with him several times on 
this subject, and I think it's fair to say--and I think 
Chairman Volcker said publicly--when he undertook the 
responsibility for looking into the Oil-for-Food program, he 
did not anticipate the extent of the problems that he found.
    And when his commissions were concluded, he has said 
publicly, testified in Congress on a couple of occasions, that 
he came to understand that the mismanagement and corruption 
that he found in the Oil-for-Food program didn't spring out of 
thin air. Just as the Oil-for-Food program emerged from the 
United Nations Secretariat, it used U.N. Secretariat employees, 
it followed Secretariat procedures and practices; the 
deficiencies of the Oil-for-Food program really highlighted the 
problems that were inherent, that already existed in the U.N. 
structure itself, so that the solution to Oil-for-Food lay not 
only in how that program was run and was not carefully 
supervised by the United Nations, but in the basic culture of 
the U.N. itself; and to prevent future Oil-for-Food scandals 
required fundamental change in that U.N. culture.
    On one occasion, when he testified up here, a Member of 
Congress asked Chairman Volcker if he thought there was a 
culture of corruption at the United Nations, and Mr. Volcker 
responded, ``No, I don't think there is a culture of 
corruption, although there is corruption. I think there is a 
culture of inaction, a culture of inaction.'' and I think 
that's a very powerful descriptive phrase for the difficulties 
we see in the U.N. structure.
    And not just the United States, Mr. Chairman, but Secretary 
General Kofi Annan himself, who recently submitted a report to 
the U.N. General Assembly called ``Investing in the United 
Nations,'' where he suggested a series of far-reaching 
management changes in procurement systems, in personnel 
systems, in auditing and accounting systems and information 
technology. The Secretary General himself said that what we 
needed at the U.N. was a radical restructuring of the 
Secretariat, a refit of the entire organization to fit the 
tasks that member-governments were imposing upon it.
    And I think it was very significant that the Secretary 
General himself, who has spent much of his career in the U.N. 
system, was the one who used the phrase ``radical overhaul'' or 
``radical restructuring.''
    Certainly we have not agreed with each and every one of his 
recommendations, but we absolutely agreed with the thrust of 
what he was trying to do, and in many cases, on the management 
side, we would be prepared to go further. But I have to tell 
you, Mr. Chairman, on Friday the Secretary General's proposals 
for reform suffered a significant setback in New York when the 
General Assembly 5th Committee--this is the committee that 
deals with budget matters--adopted a resolution which, for all 
practical purposes, tanks the Secretary General's reform 
proposals.
    We opposed that. We worked with the other major 
contributors, we tried to find a compromise with the Group of 
77--the G-77, which actually has 132 members--the developing 
countries of the United Nations, because we wanted to support 
the thrust of what the Secretary General had come up with. And 
many of these reforms that the Secretary General proposed were 
in direct response to Paul Volcker's reports and the 
investigations of this committee and others in Congress to try 
to minimize the possibility in the future of the kind of 
mismanagement and corruption that we saw in the Oil-for-Food.
    So we were disappointed at the outcome of the vote, which 
was 108 in favor of this G-77 resolution, 50 against, 3 
abstaining, 30 countries not voting.
    It's a very significant split between the countries that 
voted in favor of the G-77 and those who voted against. The 108 
countries that voted to effectively sideline the Secretary 
General's report contribute about 12 percent of the U.N. 
budget. The 50 countries that voted against their resolution, 
the 50 countries that voted in favor of reform, contribute 86.7 
percent of the U.N. budget. So I think the disjunction between 
voting power in the General Assembly and contributions to the 
U.N. system have probably not been so graphically exposed in 
recent years.
    We're going to continue our efforts, Mr. Chairman, on 
management reform, and not just management reform, but program 
reform, reviewing the nearly 9,000 mandates that the U.N. 
Secretariat currently operates under, to find outdated, 
outmoded, ineffective, wasteful and duplicative mandates and 
programs, and eliminate them. Because the objective we have is 
to get to a point where we could turn to the U.N. if we needed 
another Oil-for-Food program or needed another program of 
comparable size.
    We have a number of other reforms that we're pushing as 
well, the deficiencies of which were also highlighted in the 
Oil-for-Food scandal.
    For example, we are of the view that the existing U.N. 
Office of Internal Oversight Services [OIOS] which was set up 
at the suggestion of the United States in the early 1990's when 
Dick Thornburgh, the former Governor of Pennsylvania, was 
Under-Secretary-General for Management, has not been given the 
kind of independence and autonomy that you in Congress 
understand when you talk about an inspector general office in 
the Federal Government's major departments. We think OIOS has a 
lot of potential, but we don't think it has the independence or 
the budget that it needs to look into the U.N. effectively.
    There is a recent GAO audit of OIOS that came essentially 
to the same conclusion so that the strengthening of OIOS's 
independence and reach is important. And had OIOS been as 
effective and as strong as we wanted in the early 1990's when 
Governor Thornburgh recommended it, maybe they would have been 
able to look into the developing Oil-for-Food program and 
uncover some of the problems and allow the U.N. to take 
corrective action. Unfortunately, that did not happen.
    As a number of you have said in your introductory 
statements, the U.N. now faces important decisions on sanctions 
possibly with respect to Iran and its nuclear weapons program 
and its continuing state sponsorship of terrorism around the 
world. We recently in the Security Council imposed targeted 
sanctions on four individuals responsible for gross abuses of 
human rights in the Sudan, and we're looking at other sanctions 
that might be imposed to try and bring the parties to a 
resolution of the conflict in Darfur.
    That's not the only course we're pursuing. My colleague, 
Deputy Assistant Secretary Bob Zoellick, flew last night to 
Abuja to lend a hand to try to rescue the African Union 
mediation of the peace process there. But certainly we are 
committed to taking action through the United Nations to try 
and restore stability in Darfur and bring security to the 
people there to allow the refugees and the internally displaced 
persons to return to their homes in safety.
    So these kind of issues are going to be with us, and I 
think, in fact, Mr. Chairman, in growing importance over the 
next months and years. And I think getting the U.N. to the 
point where it can administer these kind of sanctions programs 
effectively without mismanagement and corruption is critical 
and important, not only for the reasons that we want American 
taxpayers' dollars to be spent effectively, but for the benefit 
of the people for whom these sanctions and programs are carried 
out so that we don't have the anomalous result that came from 
the Oil-for-Food in Iraq.
    So, Mr. Chairman, let me just close--and I appreciate your 
giving me some latitude in terms of timing--I'd be delighted to 
answer the subcommittee's questions and look forward to them.
    [The prepared statement of Ambassador Bolton follows:]
    [GRAPHIC] [TIFF OMITTED] 29792.058
    
    [GRAPHIC] [TIFF OMITTED] 29792.059
    
    [GRAPHIC] [TIFF OMITTED] 29792.060
    
    [GRAPHIC] [TIFF OMITTED] 29792.061
    
    [GRAPHIC] [TIFF OMITTED] 29792.062
    
    [GRAPHIC] [TIFF OMITTED] 29792.063
    
    [GRAPHIC] [TIFF OMITTED] 29792.064
    
    [GRAPHIC] [TIFF OMITTED] 29792.065
    
    Mr. Shays. Thank you, Ambassador. I think the entire 
subcommittee appreciates your statements and is happy that you 
had the time to make the points you needed to.
    At this time, the Chair would recognize Mr. Kucinich as the 
ranking member of this subcommittee.
    Mr. Kucinich. And thank you, Mr. Chairman. I would like to 
defer to the head of our Democratic side, the ranking member on 
the full committee, Mr. Waxman.
    Mr. Shays. And as I stated earlier, Mr. Waxman, we're 
putting down 8 minutes, not 5. Hopefully, we'll have a chance 
to do a little bit of a second round as well, but we'll see.
    Mr. Waxman. Thank you very much, Mr. Chairman, Mr. 
Kucinich.
    Ambassador Bolton, I'm pleased that you are here.
    The hearing today is about the Oil-for-Food program, and 
one of the fundamental purposes of the program was to provide 
food and other necessities without giving Iraq the ability to 
develop weapons of mass destruction.
    The position of the Bush administration prior to the war 
was that the Oil-for-Food program international sanctions and 
U.N. inspections had failed. We now know that President Bush 
made a horrible misjudgment, he led our Nation into war on 
false premises. And I wanted to ask how President Bush and his 
administration could have been so fundamentally wrong.
    Mr. Bolton, prior to becoming U.S. Representative to the 
U.N. you were the Under Secretary for Arms Control and 
International Security at the State Department. You were the 
senior advisor to the President and to the Secretary on all 
arms control issues. Your job was to, ``manage global U.S. 
security policy principally in the areas of nonproliferation, 
arms control, regional security and defense relations and arms 
transfers and security assistance.''
    I'd like to ask you about one of the major reasons the 
administration concluded that the Oil-for-Food program and 
related U.N. efforts were not working, namely, the 
administration's claim that despite these international 
pressures, Iraq was nonetheless seeking uranium from Najjar.
    As you know, a National Intelligence Estimate on Iraq's WMD 
was issued in October 2002. The NIE stated that Iraq was, 
``vigorously trying to procure uranium,'' from Africa. This 
language is amazing, given how wrong it was and how many U.S. 
intelligence officials voiced opposition at the time.
    Can you tell us who actually wrote that language, who was 
the specific individual who drafted the sentence?
    Ambassador Bolton. I have no idea. I'm not a member or was 
not a member of the Intelligence Community. NIEs were drafted 
by the Intelligence Community; I had no role whatever in the 
preparation of that document.
    Mr. Waxman. OK. Let's take a closer look at the facts.
    The CIA clearly didn't accept the Niger claim. Appearing on 
60 Minutes last week, Tyler Drumheller, the head of CIA 
operations in Europe, reported that he didn't believe the 
claim. He also said the CIA station chief in Rome didn't report 
the allegation. Robert Walpole, the CIA's top weapons official, 
also expressed strong doubts about the claim; and of course we 
know George Tenet was personally involved in efforts to get the 
White House to stop repeating the claims, pulling it from the 
President's October 7th speech in Cincinnati.
    We also know that the Defense Department officials opposed 
it. General Carlton Fulford, the Deputy Commander of U.S. 
European Command, traveled to Niger personally and debunked the 
claim. He reported his findings directly to Richard Myers, the 
chairman of the Joint Chiefs of Staff. And your agency, the 
State Department, also opposed the claim; Secretary Powell 
refused to make the claim in his speech to the U.N. General 
Assembly.
    Given the doubts raised by all of these officials from all 
these different agencies, can you identify a single person 
anywhere in the U.S. Government who supported the uranium 
claim, and if so, who?
    Ambassador Bolton. I'm not aware of any. I think the people 
read the NIE, and that was the information that was available.
    Mr. Waxman. You were the top arms control official in the 
administration. Are you saying you don't know of a single 
person who supported one of the primary claims that led our 
Nation to war?
    Ambassador Bolton. I'm saying, Congressman, that there are 
people responsible for the abrogation and presentation of 
intelligence information; that was done through the vehicle of 
the NIE that you quoted and other products of the Intelligence 
Community, and that was the information that was available to 
decisionmakers.
    Mr. Waxman. So the claim came----
    Ambassador Bolton. Could I just finish, please.
    Mr. Waxman. Yes.
    Ambassador Bolton. I don't have a separate--and didn't in 
my previous job--have a separate intelligence capability; so 
the information that was provided was the information that was 
available.
    Mr. Waxman. The NIE was supposed to gather information from 
all the relevant agencies.
    Let me turn to the United Nations. On December 7, 2002, 
Iraq submitted a declaration claiming it had no weapons of mass 
destruction. We now know that was true. On December 19th, 
however, your agency, the State Department, issued a so-called 
``fact sheet'' to the United Nations stating that the Iraqi 
declaration, ``ignores efforts to procure uranium from Niger.'' 
This was the first time the U.S. Government made the Niger 
claim publicly.
    The press immediately jumped on it, and NBC Nightly News 
reported, ``What could Iraq be hiding? U.S. Officials say Iraq 
attempted to buy uranium from Africa to procure nuclear 
weapons.''
    But by this time the State Department had received the 
actual documents underlying the Niger claim, and your 
intelligence bureau was saying they were bogus. My question is 
why the United States was making false claims to the United 
Nations; who put this claim into the State Department fact 
sheet?
    Ambassador Bolton. I have no idea. I didn't participate in 
the drafting of the fact sheet. I first saw it, for the first 
time I believe, last year during my confirmation hearing.
    Mr. Waxman. Well, the fact sheet was created from a draft 
of the speech to the Security Council by Ambassador Negroponte. 
I understand that Ambassador Negroponte, your predecessor, 
spoke to the Security Council on or around December 19th, and 
the fact sheet was developed from a draft of his speech.
    But what I don't understand is why this claim was in 
Ambassador Negroponte's speech to begin with. What role did you 
play in preparing Ambassador Negroponte's speech to the 
Security Council?
    Ambassador Bolton. None.
    Mr. Waxman. If you were the top arms control official in 
the U.S. Government, Iraq's nuclear program was the No. 1 arms 
control issue in the administration.
    Are you saying you played no role in the speech, you didn't 
help draft it, you never reviewed it?
    Ambassador Bolton. That's correct.
    Mr. Waxman. Did you put the claim into the speech prepared 
for Ambassador Negroponte?
    Ambassador Bolton. I certainly did not. I just said twice I 
had no role in the preparation of the speech.
    Mr. Waxman. OK. Did you have access to the transcript, a 
recording of Ambassador Negroponte's speech?
    Ambassador Bolton. Did I have access to it? Probably. Did I 
read it? I don't think so.
    Mr. Waxman. Could you provide to the subcommittee, as well, 
the drafts of the speech that form the basis for the fact 
sheet? Do you have that available?
    Ambassador Bolton. I don't have that available.
    Mr. Waxman. I'd like to ask you one final set of questions.
    On April 9th of this year the Washington Post issued a 
story entitled, ``A Concerted Effort to Discredit Bush 
Critic.'' This article makes an astonishing claim; it says that 
in January 2003 the National Intelligence Council, which 
coordinates the U.S. Intelligence agencies, issued a memo that 
forcefully debunked the uranium claim in unequivocal terms. 
Contrary to the NIE, this memo warned that the Niger story was 
baseless and should be laid to rest according to the Post.
    Were you aware of the January 2003 memo from the National 
Intelligence Council? Did you receive it, and can you provide a 
copy to this subcommittee?
    Ambassador Bolton. I don't know whether I received it at 
the time or not. I don't have any recollection of it. I 
certainly don't have a copy of it today.
    Mr. Waxman. The article says that the memo was distributed 
widely, including to the White House, yet it was during this 
exact same timeframe that the White House escalated its use of 
this false allegation.
    For example, on January 20th President Bush sent a letter 
to Congress that included the uranium claim. On January 23rd 
Deputy Defense Secretary Paul Wolfowitz made the claim in his 
speech before the Council on Foreign Relations. Condoleezza 
Rice wrote an Op-Ed making the uranium claim on January 23rd. 
On January 29th Defense Secretary Rumsfeld made the claim 
during a nationally televised press conference; and of course, 
the President made the claim in his State of the Union Address 
on January 28th, the now infamous 16 words.
    Again, you were the top arms control official. How could it 
be that the President, the Defense Secretary, the National 
Security Adviser, all of these top administration officials are 
making this claim when the National Intelligence Council 
specifically warned it was bogus?
    Mr. Shays. Your answer will be your last response.
    Ambassador Bolton. I think you would have to ask them.
    Mr. Waxman. Do you accept any responsibility for having 
failed these officials for allowing them to repeat these 
falsehoods? This is my last question.
    Ambassador Bolton. I don't think anybody ever asked me 
whether I thought they ought to say it or not.
    I'm sorry to disappoint you, Congressman; I had no role in 
this issue.
    Mr. Waxman. You didn't speak out against it----
    Mr. Shays. With all due respect, the gentleman's time is--
--
    Mr. Waxman. Well, could I just get an answer?
    You didn't speak out for it; did you speak out against it?
    Mr. Shays. The gentleman's time is over. Thank you.
    Ambassador Bolton. I would like to answer.
    I don't recall this being an issue that I spent any time 
on. Sorry.
    Mr. Waxman. It's amazing.
    Ambassador Bolton. Sorry.
    Mr. Shays. Mr. Bolton, obviously we're going to have 
questions about a lot of issues.
    One of the things I find rather refreshing, usually when 
witnesses don't want to answer questions before us, they end up 
spending 5 minutes responding to each question so someone 
doesn't get a chance to ask their questions. And you gave the 
ranking member a chance to go through a lot, and that's 
appreciated. Thank you.
    I want to ask you, what is the reason the group of G-77 
opposed the reform agenda in your judgment? Why did they oppose 
it?
    Ambassador Bolton. I think there is a complex of reasons 
there. I think, first, they're concerned about the potential 
loss of programs and jobs in the U.N. system that might occur 
if we really did have a radical restructuring of the 
Secretariat. I think they're concerned, as well, because the 
exact dimensions of our reform efforts are not entirely clear. 
And I think they're concerned as a matter of allocation of 
political responsibility that if the major contributors to the 
U.N. stick together, they might be able to reshape the programs 
in a way that their mere numericals in voting power on the 
floor of the General Assembly might otherwise not be able to 
do.
    I want to tell you, though, Mr. Chairman, we believe that 
the reforms that we are proposing in the U.N. are for the 
benefit of all of the member-governments. We think that if the 
U.N. were more effective, more efficient, more transparent, 
more responsive, that the United States--and I think others--
would be more willing to entrust it to important 
responsibilities in the solution of international problems. 
It's when we see a vehicle that is not effective, not 
responsive, not transparent, that we're reluctant to entrust it 
with important tasks.
    So it is our intention, and we're making substantial 
efforts, to try and convince the G-77 that they should embrace 
these reforms, that they're not just something that the United 
States or the other major contributors want; and as I noted in 
my opening remarks, that many of these reforms are reforms that 
the Secretary General himself has proposed, so they're hardly 
an American conspiracy.
    Mr. Shays. Can you tell me, though, how are you going to be 
able to convince the bulk of these nations to allow these 
reforms to go forward? I mean, I'm just thinking, diplomacy is 
great, but ultimately how are you going to get it done?
    Ambassador Bolton. Well, I am hoping that the vote on 
Friday will be perceived by a good chunk of the G-77 to be a 
Pyrrhic victory; that is to say, although the arithmetic was in 
favor of their resolution because of the numbers on the floor 
of the Fifth Committee, they will see that repudiating the 
countries that contribute the overwhelming bulk of the U.N. 
budget isn't a way to win friends and influence people.
    And this is something that Congress has been concerned over 
the years but it is not just the American Congress, the 
Japanese Diat has expressed great concern about the fact that 
Japan is the second largest contributor to U.N. assessed 
budgets--19\1/2\ percent is the Japanese share, second only to 
ours of 22 percent--and yet it now looks increasingly likely 
that Japan will not succeed in its efforts to acquire a 
permanent seat on the U.N. Security Council. And there are 
strong indications that many members of the Japanese Diat are 
going to look to a downward adjustment of Japan's share.
    And other large contributors, I think, share many of these 
concerns. So this is something that will require a substantial 
amount of advocacy on our part, but we think it's important to, 
and we're trying to, engage in that advocacy.
    Mr. Shays. When you talk about depoliticizing the Security 
Council, what are you making reference to?
    Ambassador Bolton. Well, I think the question of reform of 
the Security Council has taken up a great deal of oxygen in the 
U.N. system over the past year or so, and the prospects for a 
change in the permanent membership at this point do not look 
very substantial, although it's certainly the position of the 
United States that the permanent membership, as it now stands, 
reflects the world of 1945 instead of the world of 2006.
    We believe that Japan, for example, should be a permanent 
member of the Security Council, and we're prepared to continue 
to work for that; but the opposition of China, the opposition 
of other countries have made it impossible so far to achieve 
that objective.
    Mr. Shays. Let me make a point and then have you respond to 
it.
    In the Volcker report he said, no weapons of mass 
destruction in Iraq, but he also said that Saddam had bought 
off France and Russia in the Oil-for-Food program, which is 
what we're talking about, and that he was absolutely convinced 
that we would not have their support in providing any action 
against Iraq. I am struck with the fact that we never would 
have because the French and the Russians were bought off. We 
hear France, as it relates to dealing with the nuclear issue in 
Iran, say to us, they're not going to support sanctions if it 
doesn't pass U.N. muster, which means we've got to get the 
Russians and the Chinese to agree.
    Knowing their issue about energy, I wonder how it's ever 
possible. And then I begin to think, well, you'll never see the 
U.N. ever take meaningful action on any issue.
    And let me just say, it's my understanding--and I said it 
in my statement, of sanctions--if you don't want war, if you 
don't want military actions, you've got to have sanctions that 
work.
    So if you could just respond to this final question I've 
asked.
    Ambassador Bolton. Well, I think your point about the role 
of sanctions is critical. If you look at the other two ends of 
the spectrum, one is the application of diplomatic and 
political measures on one hand, use of force on the other, 
sanctions--which were really developed in American political 
theory as a diplomatic tool by Woodrow Wilson--provides 
something in the middle, something that may give you the 
opportunity to exert leverage and pressure to achieve a desired 
outcome short of the use of force.
    And I think that, as Congressman Van Hollen said, whether 
sanctions succeed or not depends on the particular facts and 
circumstances of a given situation. I would offer the example 
of Libya, where targeted sanctions were imposed in the wake of 
the bombing of Pan Am 103, which over time I think were an 
important contributing factor--among others to be sure--but 
were an important contributing factor to the Libyans to give up 
the pursuit of nuclear weapons.
    So the utility of sanctions--for the effect they can have 
on the desired target, but also for the political support that 
can be gained to show, for example, that use of force is not 
the first option, not the preferred option--that you're willing 
to undertake other measures short of the use of force, helps 
build and keep coalitions together.
    Specifically with respect to Iran, it is true that there 
have been statements by Russia and China that they will not 
accept sanctions. My own view is that as we get into the 
concrete drafting of particular Security Council resolutions, 
we'll see how those positions play out in fact.
    And we will be turning this week, in fact, to a resolution 
which we will propose under Chapter 7 of the U.N. Charter which 
will make mandatory on Iran all of the existing IAEA 
resolutions calling on it to suspend its uranium enrichment 
program and so on. A permanent member of the Security Council 
obviously has the option to veto such a resolution, but a 
permanent member also has the option to abstain. And when a 
permanent member abstains, that is acquiescing in the Security 
Council's taking action, assuming there's otherwise a majority 
of nine votes.
    We just saw a case of that in the Sudan sanctions that I 
mentioned. Last week we adopted a resolution sanctioning four 
individuals by a vote of 12 to 0 to 3, Russia, China and Qatar 
abstaining, 12 votes in favor, no votes against. So Russia and 
China in that case chose not to veto the imposition of 
sanctions by abstaining, allowing the sanctions to go into 
effect.
    And while it would be desirable to have a unanimous 
Security Council when we adopt this resolution under Chapter 7, 
directing Iran to comply mandatorily with the IAEA resolutions, 
it's not impossible that we would proceed without them. And if 
they abstain, then that resolution would go into effect, as 
would subsequent sanctions resolutions if we get to that point.
    Mr. Shays. Thank you.
    Before recognizing Mr. Kucinich--I don't usually do this, 
but two people you know that actually work in this hearing are 
recorders, and I just want to welcome Elizabeth and Dianne 
back; and Dianne has had twins. Elizabeth has four children; 
and I just learned that Geoffrey, her 5-year-old who plays the 
trumpet, is going to be on the Today program on May 11th.
    We thank you both for your work. And you're mothers, 
besides doing all of this, and they're extraordinary children 
besides. And you have to record all of this while I'm saying 
it, don't you? I applaud you both. Thank you.
    Thank you. And, Mr. Kucinich, you have the floor.
    Thank you.
    And Mr. Kucinich, you have the floor.
    Mr. Kucinich. Thank you, Mr. Chairman, and thank you for 
injecting a note of humanity into these hearings because it is 
always good to get the personal connections. So thank you.
    Ambassador, thanks again for being here. You spoke of 
Woodrow Wilson and his view of sanctions as being kind of a 
midpoint. And we are here talking about the effectiveness of 
sanctions.
    I am wondering about the effectiveness of sanctions if a 
series of steps have already been taken that leapfrog past what 
sanctions could hope to achieve.
    Question, if the United States is engaging in covert anti-
government activity in Iran, is this legal under U.N. law?
    Ambassador Bolton. Well, U.N. doesn't impose law, and in 
any event, it is not appropriate to comment in a public session 
on anything related to intelligence activities, and so with 
respect, I will simply decline to discuss that. It is not 
anything I would have anything to do with. Any way, my job is 
in New York.
    Mr. Kucinich. If the United States has combat troops in 
Iran, would that be a violation of the U.N. charter?
    Ambassador Bolton. Congressman, I have no knowledge of that 
subject at all, and I just don't think it is helpful to 
speculate on that matter. If there are others in the 
administration you would like to talk to on it, I am sure you 
could summon them, but it is not anything I am involved with in 
any way.
    Mr. Kucinich. And what would be a legal justification for 
one sovereign country to insert its military forces into 
another sovereign country under U.N. law?
    Ambassador Bolton. Article 51 of the U.N. Charter provides 
for the inherent right of individual and collective self-
defense. That is a pretty good basis.
    Mr. Kucinich. I will ask that again, for one sovereign 
country to insert its military forces into another sovereign 
country?
    This is not self-defense.
    Ambassador Bolton. Well, I think the self-defense defense, 
as the Secretary General's high level panel a few years ago 
recognized, comes in a multitude of forms. And you asked a 
hypothetical question, and I gave you an answer----
    Mr. Kucinich. Hypothetically it is preemption self-defense.
    Ambassador Bolton. It certainly can be. Absolutely, as the 
Secretary General's own high-level panel recognized.
    Mr. Kucinich. Then is Iran an imminent threat to the United 
States?
    Ambassador Bolton. Congressman, you know, the President has 
made it clear that his purpose and his priority is to achieve a 
peaceful and diplomatic resolution to the threat to 
international peace and security imposed by the Iranian nuclear 
weapons program. He has said repeatedly, as has Secretary Rice, 
that, of course, we never take any option off the table. But 
the priority that we are addressing now and certainly, my 
responsibility is diplomacy in the Security Council.
    Mr. Kucinich. Do you know of a Presidential National 
Security Directive on regime change in Iran?
    Ambassador Bolton. I do not.
    Mr. Kucinich. When did you become aware that regime change 
in Iran was U.S. policy?
    Ambassador Bolton. I don't think that is an accurate 
statement of the policy. I think Secretary Rice testified 
before Congress I guess it was some months ago now that we were 
requesting a $75 million increase in support to an aggregate 
level of $85 million for activities supporting democracy in 
Iran. And I think that is the ultimate objective we seek, a 
free and democratically elected regime in Iran that we could 
hopefully persuade to give up the pursuit of nuclear weapons.
    Mr. Kucinich. We have seen a report in the New Yorker by 
Seymour Hersh that a U.S. source told him that U.S. Marines 
were operating in the Baluchis, Azeris and Kurdish regions of 
Iran. Have you ever heard of that report?
    Ambassador Bolton. I have never heard of the report. I have 
never read the article, nor do I intend to.
    Mr. Kucinich. Do you have an interest as to whether or 
not--as the U.S. Ambassador, you don't have any interest as to 
whether or not U.S. Marines are actually operating in Iran 
right now?
    Ambassador Bolton. I said I had not heard of the report, 
and I didn't intend to read the article in the New Yorker.
    Mr. Kucinich. If I give you this article right now and 
walked it over right now, would you look at it?
    Ambassador Bolton. I don't think so honestly, Congressman, 
because I don't have time to read much fiction.
    Mr. Kucinich. Well, you know, now if it wasn't fiction, Mr. 
Bolton, would that be of interest to you?
    Ambassador Bolton. Congressman, it is of interest to me to 
be as fully informed on matters affecting my responsibilities 
in the government as I can. I have no responsibility for the 
matters you are talking about, and I think that there is a lot 
of unfounded speculation. The President has been as clear as he 
can be that his priority is a peaceful and diplomatic 
resolution of the Iranian nuclear weapons program. And that is 
the direction I am trying to carry out in New York.
    That is my job.
    Mr. Kucinich. Well, wait a minute, Mr. Ambassador. We know 
U.S. troops are in Iran. How does this affect your 
negotiations?
    Ambassador Bolton. Well, Congressman, you know more than I 
do. That is all I can say.
    Mr. Shays. Here's what we are going to do. We are going to 
go to Mr. Lynch.
    Mr. Lynch.
    Mr. Lynch. I am sorry, Mr. Chairman?
    Mr. Shays. You have the floor. Thank you.
    Mr. Lynch. Thank you. Thank you.
    Mr. Ambassador, if I could followup, first on Mr. Waxman's 
questions. As he has stated, prior to becoming the U.S. 
Representative to the United Nations, you were the under 
Secretary for Arms Control and International Security at the 
State Department. You were the senior adviser to the President 
and to the secretary on all arms control issues. Your job was 
to manage global U.S. security, principally in the areas of 
nonproliferation, arms control, regional security and defense 
relations, and arms transfer and security assistance.
    Now, I accept your previous answers that you had no 
involvement with the Niger uranium purchase theory, but given 
your job description, given the sphere of your responsibility, 
I find it stunning that you were, I believe, you were, just as 
you say, out of the loop with all those responsibilities that 
you have in advising in President; that he came to the American 
people and basically presented his theory, which we now know is 
false, that Saddam was trying to buy uranium from Niger. I just 
find, again, it stunning you were not in the loop. I believe 
you. I believe that you have no culpability in that theory.
    But I also think that the opposite side of the coin is 
equally damning, that you were excluded from all of that given 
your responsibilities. Do you tend to agree with that? Do you 
see what I am saying?
    Ambassador Bolton. No, I don't think I was excluded from 
anything. I think that the questions that Congressman Waxman 
was asking dealt with issues of intelligence collection and 
analysis. And in that sense, I was a consumer, not a producer. 
My job was not part of the Intelligence Community; it was not 
part of my responsibility.
    Mr. Lynch. Well, I beg to differ, sir, with all due 
respect. And I think this goes to Mr. Kucinich's questions as 
well, that with respect to the theory, again, or the 
supposition that we may have U.S. troops operating in Iran.
    Now, I don't think you should take anything at face value 
in any periodical. However, I do suggest very strongly that you 
have an obligation to inform yourself. And I just came back 
from Iraq last Sunday. And let me just leave it at that, that I 
do believe you have an obligation to inform yourself.
    Ambassador Bolton. I agree.
    Mr. Lynch. And I don't think that you should, on an issue 
of such great importance and given your position, that you 
should deny the opportunity to at least weigh that evidence and 
weigh that information, sir.
    Basically, one of the main criticisms of the sanctions 
issue, if we can get back to that, is that there are no 
guidelines, no firm standards by which we implement. There is 
some information and are some guidelines on the authorization 
of sanctions, but at the implementation stage, there has been 
great criticism about how we carry those out and the 
relationships between the Secretariat and also with governments 
and the legal relations between those.
    Have you made recommendations or do you have solid 
recommendations that would coincide with what Secretary General 
Annan is recommending to the U.N. that might solve that 
problem?
    Ambassador Bolton. Well, I think one of the difficulties 
with the sanctions regime on Iraq in the aftermath of the 
cease-fire in 1991 was that attention, international attention, 
drifted away from the enforcement of the sanctions regime. And 
that occurred during the 1990's. That was a problem that the 
United States was partially responsible for, that it simply did 
not receive as high priority as it had in an earlier period.
    And I think that is a central element of the question of 
the utility of sanctions once applied, in other words, that the 
imposition of sanctions in the first instance ought to have an 
objective and a purpose, and there ought to be ways of trying 
to evaluate whether the sanctions remain effective or whether 
they have ceased their usefulness. And I can give you an 
example of that in the U.S. context, not U.N. sanctions but 
U.S. sanctions. After India and Pakistan tested nuclear weapons 
in 1998, the United States imposed a variety of trade sanctions 
on both countries.
    And I can tell you that by the early part of the summer of 
2001, what was then the relatively new Bush administration had 
come to the conclusion that the sanctions that had been in 
place against India and Pakistan were not having any effect, 
that the governments of India and Pakistan manifestly were not 
going to give up the nuclear weapons they had acquired and that 
the sanctions that we had put in place were impeding our 
ability to discuss with both India and Pakistan not only the 
issue of their nuclear capability but a range of other issues 
as well, so that actually, even before September 11th, but then 
shortly thereafter, the decision was made to lift the sanctions 
because they weren't effective.
    That is at least an example. But I don't think you can 
write hard and fast rules. I do think that the sanctions in the 
case of most policy tools depend on the environment in which 
they are imposed and so on.
    But I do think that having a better, a greater clarity and 
objections when sanctions are imposed and greater rigor in 
analyzing their effectiveness during their lifetime would be a 
sensible thing to do.
    Mr. Shays. Just a quick followup.
    Mr. Lynch. Just one very quick followup. Based on what the 
Secretary General is recommending in his reform package that 
was defeated last Friday, how closely on a scale of 1 to 10, 
how closely does his reforms--I know you have said you would go 
further--but how closely does he come to where you would like 
to see him in terms of those reforms?
    Ambassador Bolton. In terms of what he recommended in his 
report, ``Investing in the United States,'' I can say this 
roughly, I think between 80 and 90 percent of those suggestions 
are things that we would agree with. As you indicated, we would 
probably go further in some cases, but in terms of the utility 
of what he had suggested, we are with him on a very high 
percentage.
    Mr. Lynch. OK, thank you very much.
    Mr. Shays. Thank the gentleman.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Thank you, Mr. Ambassador, for your testimony.
    I believe that the fact that the United States thumbed its 
nose at the United Nations in the leadup to the war in Iraq and 
the decision to go to war in Iraq without going back and 
getting greater authorization consensus to the U.N. process has 
made it more difficult to persuade others that the United 
Nations must now take collective action with respect to Iran.
    I also think the fact that we lost a tremendous amount of 
credibility with respect to claims about weapons of mass 
destruction when it turned out not to be weapons of mass 
destruction has made it more difficult with respect to Iran.
    I would just take us back to one of your predecessors, 
Ambassador Adlai Stevenson, at the time of the Cuban missile 
crisis who unveiled with great drama the fact that the Soviets 
were putting missiles into Cuba, and it turned out to be true.
    And I would contrast that with Secretary Powell's 
performance in the United Nations with your predecessor, 
Ambassador Negroponte, where he displayed evidence against Iraq 
which he has conceded turned out to be false and which, I 
think, has undermined our credibility in a significant way. And 
Secretary Powell has acknowledged that this was one of the low 
points of his career.
    The President has acknowledged himself that the failure to 
find weapons of mass destruction despite our earlier comments 
and evidence has made it more difficult in this area to 
persuade others because of a greater skepticism which he said 
is understandable. If you could talk a little bit about how 
that has affected your efforts at the United Nations. The 
President has acknowledged the issue.
    What steps have you had to take to reassure your 
colleagues, and how much has this been a problem?
    Ambassador Bolton. Well, first, I don't think it is 
accurate to say that the United States thumbed its nose at the 
Security Council before launching the operation that overthrew 
Saddam Hussein.
    In the first place, there was no need to go to the U.N. 
even to obtain Resolution 1441. It is perfectly clear that 
Iraq's persistent violations of the cease-fire resolution, 
Resolution 678, renewed the authority--Resolution 687 rather--
renewed the authority of Resolution 678 to use force, so that 
in terms of--because when a participant in a cease-fire 
resolution, acknowledging it as Iraq did repeatedly, violates, 
vitiates the force of the cease-fire, so there is no need under 
Security Council precedent or authority to go back even for 
1441.
    But second, and as you quoted the phrase, serious 
consequences if Iraq didn't comply with 1441, there wasn't a 
country in that room that didn't know what serious consequences 
meant.
    So in terms of whatever obligations we had under Security 
Council previously existing resolutions or current practice, 
there is no doubt that we did what was necessary. And the only 
tragedy there is that the Security Council itself didn't follow 
through to enforce its own resolutions, because if the Security 
Council doesn't care about the integrity of its resolutions, 
you can be sure nobody else will.
    Second, on the issue of weapons of mass destruction, you 
know I think one of the, in Iraq, one of the most important 
aspects of the conclusion that Saddam Hussein still had weapons 
of mass destruction came not from intelligence but from Iraq 
itself.
    In 1991, under the terms of Resolution 687 Iraq was 
required to make----
    Mr. Van Hollen. Mr. Ambassador, I promise I have limited 
time. And listen--listen----
    Ambassador Bolton. I will give an answer.
    Mr. Shays. Let me say this to you, I will let you have more 
time.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Ambassador Bolton. Iraq was required to make a declaration 
of WMD assets that they had. And one of the declarations that 
Saddam made in 1991 was declaration of a considerable amount of 
chemical agent, chemical weapons agent.
    The terms of 687 required that, under the supervision of 
UNSCOM, the first, Iraq was required to prove the destruction 
of the weapons it had declared.
    And during the entire period from 1991 forward to 2002, 
Iraq never proved it had destroyed the chemical weapons agent 
that it declared.
    Hans Blix, the chairman of UNMOVIC, the second U.N. weapons 
investigation, went to the Iraqis, and as he has recounted the 
story himself, he said, where is the proof that you have 
destroyed the chemical agent that you have declared? And the 
Iraqis said, well, we destroyed it; we just didn't keep any 
records of it. Hans Blix said to the Iraqis in his own 
recounting of the story, that stuff isn't marmalade. If you 
destroyed it, you have records of it. And the Iraqis never 
produced records.
    This was deemed sufficiently credible by our military and 
by other of our coalition military leaderships that when they 
went into Iraq, the forces took with them chemical weapons 
protective gear. That was a decision that--that gear is hot. It 
is heavy. It is cumbersome. No responsible military leader 
would have burdened their combat troops with that equipment 
unless they had thought that the potential use of chemical 
agents was significant.
    Mr. Van Hollen. Mr. Chairman, with all due respect, I had a 
specific question.
    Mr. Shays. We haven't forgotten your question yet. The 
gentleman has 2 minutes. Go for it.
    You have time.
    Mr. Van Hollen. Let me quickly respond. I asked, the 
President himself has acknowledged in statements that our 
failure to find WMD in Iraq has created more difficulties with 
respect to persuading other countries with respect to Iran. He 
has said it, and Mr. Bolton just gave us a long talk. The fact 
of the matter is, El Baradei and Hans Blix, before we went to 
war in Iraq, both of them urged the United States to take 
greater time to allow the U.N. weapons inspectors to make a 
determination about whether or not weapons of mass destruction 
existed. We decided to ignore that request for additional time. 
And the result in the end was we know there were no weapons of 
mass destruction.
    Now, I am very pleased you have mentioned the fact with the 
earlier resolutions, 678 and 687, because before we went into 
Iraq on the eve of the invasion, the President did cite those 
two resolutions. And he said the United States and our allies 
are authorized to use force in ridding Iraq of weapons of mass 
destruction. This is not a question of authority; it is a 
question of will, which is the argument you were just making.
    Now, we are currently trying to get the United Nations to 
act under Chapter 7 Security Council with respect to Iran. 
Chapter 7 is the provision under the U.N. charter, action with 
respect to threats to the peace, breaches to the peace and acts 
of aggression.
    I would submit to you, Mr. Ambassador, that one of the 
reasons it is very difficult now to get the support of these 
countries in the Security Council is their fear that we will 
later use that Security Council resolution as a justification 
to use military force perhaps unilaterally. And you have just 
referenced two incidences where the President did that.
    Let me ask you, if the United Nations Security Council were 
to invoke Chapter 7 with respect to sanctions against Iran, can 
you give them assurance that the United States will not later 
rely on that resolution to take unilateral military action 
against Iran?
    Ambassador Bolton. The purpose of invoking----
    Mr. Van Hollen. I would appreciate if you answer the 
questions directly related to your duties as our Ambassador.
    Ambassador Bolton. That is why I like to get it straight 
what Chapter 7 does. And I would refer to you Article 39 of the 
U.N. Charter which states that it is the Security Council's 
responsibility to ascertain whether there is a threat or a 
breach of international peace and security and to make 
recommendations to deal with that threat.
    The Iranian nuclear weapons program is unquestionably a 
threat to international peace and security, as we have been 
urging for over 3 years now to have the International Atomic 
Energy Agency refer the Iranian program to the Security 
Council. That is something that the Security Council in its 
March Presidential statement unanimously agreed that it was 
time to call on Iran to comply with those IAEA resolutions. And 
it is the subject of the Chapter 7 resolution that we are 
urging now on the Security Council.
    The reason to urge a Chapter 7 resolution is that, under 
the U.N. Charter, a Chapter 7 resolution is mandatory on all 
U.N. members, mandatory even on Iran, whether it likes it or 
not as long as it is a U.N. member. The purpose of Chapter 7 
therefore is not to lay the basis necessarily for any further 
action, peaceful action, sanctions action or the use of force. 
It is to make it mandatory on the government of Iran. And that 
is the purpose of it right now.
    We are going to do this one resolution at a time.
    Mr. Van Hollen. Mr. Chairman, if I could just get an answer 
to the question, which is--look, I referenced the earlier 
resolution, U.N. resolutions the President relied on to take 
military action in Iraq. I would suggest that one of the 
reasons it is going to be difficult to get the consensus we 
want to take it to the Security Council for economic sanctions 
is the fear that the United States will later point to that as 
justification for unilateral military action. I am wondering if 
you are able to tell the Chinese and the Russians and the 
others that we will not point to that action of the Security 
Council with respect to sanctions as justification later on for 
unilateral U.S. Military action.
    Ambassador Bolton. Your question contains a non sequitur 
which is why it is not possible to answer, but I would say what 
is significant in the Council today is that the United States, 
France and Britain are together on this; Russia and China are 
not yet. But I don't think any of us would advocate--I hope 
not--that Russia and China would dictate the steps we ought to 
take to protect our own national security.
    Mr. Van Hollen. I am certainly not suggesting that, Mr. 
Ambassador. I am asking you if that is the element that is 
making it more difficult to get consensus because of the 
earlier way we dealt with the Security Council.
    Thank you, Mr. Chairman.
    Mr. Shays. And thank you, Mr. Ambassador, you have been 
here about an hour and 20 minutes. Do you have 10 more minutes?
    Ambassador Bolton. I am having fun, Mr. Chairman. I can 
spend a few more minutes.
    Mr. Shays. Why don't we do this, Mr. Kucinich, why don't I 
give you 3 minutes, and then, I am following the order, I am 
trying to be respectful of the process.
    Mr. Kucinich. I would certainly yield to Mr. Waxman in a 
heartbeat.
    Mr. Waxman. Thank you, Mr. Kucinich, and Mr. Chairman.
    Mr. Bolton, it was interesting, your response to 
Congressman Van Hollen's question, because you went through a 
lot of legalisms of why we were justified in taking the action 
we did to enforce the U.N resolutions where the U.N. didn't 
care enough to enforce it themselves. But we do have a 
credibility problem, and that is that we went to war not for 
the U.N. to enforce U.N. resolutions but to stop Iraq from 
developing weapons of mass destruction.
    I must tell you, I voted for that resolution, because I 
deferred to the administration when they said that Iraq had 
been a nuclear threat.
    I want to clarify your answers to my question because you 
said, despite the fact you were the top arms control official 
in the administration, you were not involved in the preparation 
of the December 19, 2002, State Department fact sheet in which 
the administration first made public the uranium claim. You 
also testified you had no involvement whatsoever in the 
development of the December 19th speech by Negroponte in which 
the fact sheet was based. I understand from the Department of 
State, State Department Inspector General, however, that your 
office was deeply involved in both the preparation of the fact 
sheet and the Negroponte speech. Was it true that your office, 
specifically the nonproliferation bureau, was involved in the 
preparation of the Negroponte speech?
    Ambassador Bolton. They may well have been. I should 
explain to you, Congressman, that when I was under secretary, I 
had four separate bureaus reporting to me. They did a lot of 
staff work on a lot of issues that never came to my attention 
and appropriately so. I couldn't do all the work of the 600 
people who reported to me.
    Mr. Waxman. So you had no involvement in the draft of a 
speech to the United Nations claiming that the reason we need 
to be concerned about Iraq was because they were trying to get 
uranium to build a nuclear bomb. You also testified you had no 
involvement in the preparation of the fact sheet. And I have 
here, however, a timeline prepared by the State Department IG, 
and here what is it says, December 18, 2002, 8:30 a.m. at 
Secretary Powell's morning staff meeting, the assistant 
secretary for the Bureau of Public Affairs and department 
spokesman asked the under secretary of arms control and 
international security--you--for help in developing a response 
to Iraq's December 7th declaration to the U.N. Security Council 
that could be used with the press.
    The Under Secretary Bolton agrees and tasks to the Bureau 
of Nonproliferation, and so according to the IG, your office 
subsequently reviewed multiple drafts of the facts sheet, and I 
would like to make this time line part of the record of this 
hearing Mr. Chairman.
    Mr. Shays. Without objection so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 29792.066
    
    [GRAPHIC] [TIFF OMITTED] 29792.067
    
    [GRAPHIC] [TIFF OMITTED] 29792.068
    
    [GRAPHIC] [TIFF OMITTED] 29792.069
    
    Mr. Waxman. Your testimony in response to my initial round 
of questions was that you had no involvement, but this 
Inspector General review finds that you did. How can you 
explain this?
    Ambassador Bolton. The question that was put to me by 
Richard Boucher was, should this fact sheet be drafted by the 
Bureau of International Organization Affairs or the Bureau of 
Nonproliferation Affairs. And I suggested it be prepared by the 
NP Bureau, which is, I think, had greater technical knowledge 
of what would be or what would not be in the Iraqi declaration.
    But that was a matter----
    Mr. Waxman. That wasn't the question I asked. I asked you 
if you were involved at all----
    Ambassador Bolton. I had no involvement. I had no 
involvement myself in the preparation of the fact sheet.
    Mr. Shays. The gentleman's time has expired, but if some 
other Member wants to yield.
    Mr. Waxman. May I say one concluding comment, Mr. Chairman, 
you have been generous----
    Mr. Shays. Would the gentleman suspend a second? I am happy 
to have one of your other colleagues lend you their 3 minutes. 
I have no problem with that.
    Mr. Waxman. Mr. Chairman, I would like to make one 
concluding comment.
    Mr. Shays. OK, if that is all it is.
    Mr. Waxman. It isastounding to me that you were in charge 
of this job, and you said before that you take that 
responsibility to be fully informed on matters that affect your 
duties. That is why you don't bother to read the column that 
Mr. Kucinich----
    Ambassador Bolton. Seymour Hersh.
    Mr. Waxman. Seymour Hersh wrote. But you are in charge of 
your own duties. When you are in charge of arms control and the 
biggest issue is whether we are going to go to war against Iraq 
on the issue of nuclear weapons, and you are charged with 
developing the fact sheet, and your people are charged, you are 
charged, and therefore your people develop the speech, don't 
you think you have some responsibility to know what was going 
on?
    Ambassador Bolton. The speech was written by and for 
Ambassador Negroponte. And as I say, at the staff level in the 
State Department, lots of things get cleared by lots of people.
    I don't clear all of the Ambassadors. I didn't clear--I 
believe, any of Ambassador Negroponte's speeches, and I think 
there are probably hundreds of people in the State Department 
today who don't clear any of my speeches that I give. Let me 
finish.
    Mr. Waxman. You are not accepting responsibility for what's 
going on under your inspection.
    Mr. Shays. Mr. Waxman, one last point, and you are just 
going on. I am happy to have someone else yield to you. If Mr. 
Kucinich wants to yield, or Mr. Lynch whatever----
    Mr. Waxman. Mr. Chairman, I made my point. We will keep 
strict track of the time you use as well.
    Ambassador Bolton. I want to say, Congressman, I wish I 
could explain to you more comprehensively how the State 
Department works, because I think your questions reveal that 
perhaps you would benefit from that information.
    Mr. Waxman. No, my questions are about what you did as the 
boss of the department that was supposed to be in charge of 
arms control which was directly involved in the biggest issue 
of our time, nuclear war.
    Ambassador Bolton. The biggest disappointment to you, 
Congressman, is that I had no involvement. I am sorry about 
that.
    Mr. Waxman. You didn't do your job.
    Mr. Shays. Ambassador, I thank you for being here. And I 
thank the Members for their questions.
    Mr. Kucinich you have 3 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Ambassador, you previously equated U.N. Article 51 the 
right of self-defense with the doctrine of pre-emption.
    We know that Article 51 says in measures taken by members 
in the exercise of this right of self-defense shall be 
immediately reported to the Security Council.
    Has the United States notified the Security Council that 
the United States has begun an operation against Iran?
    Ambassador Bolton. There is no notification that has been 
given, but by saying that, I don't want to leave any 
implication that there is some operation that we haven't 
reported because I think to the extent that is implied in your 
question, it is inaccurate.
    Mr. Kucinich. Do you agree that the United States would 
have an obligation as stated under Article 51 that if the 
United States had inserted combat troops in Iran or coordinated 
anti-Iranian insurgent groups like MEK to notify the Security 
Council----
    Ambassador Bolton. I am not going to speculate on something 
that is entirely hypothetical.
    Mr. Kucinich. If the United States has troops in Iran, 
would Iran be justified in invoking article 51?
    Ambassador Bolton. I'm not going to speculate on that 
either.
    Mr. Kucinich. Now I want to get this straight for members 
of the subcommittee. The Ambassador can't comment about troops 
in Iran. He can't talk about troops in Iran, or he has no 
knowledge of troops in Iran. And he calls Mr. Hersh's article 
and of inserting troops in Iran, fiction. Mr. Ambassador, which 
is it? Are there troops in Iran and you can't talk about it, or 
are there no troops in Iran?
    Ambassador Bolton. I have no knowledge one way or the other 
of that subject nor is it appropriate. I work at the State 
Department, not the Defense Department.
    Mr. Kucinich. Can you say, Ambassador Bolton--according to 
a report in the Guardian newspaper in early April, you told 
British Parliament you believe military action could halt or at 
least set back the Iranian nuclear program. Are you confident 
that U.S. intelligence on Iran is comprehensive and sufficient 
to accurately target the Iranian nuclear program? Do we know 
where? How much with certainty?
    Ambassador Bolton. The report was inaccurate.
    Mr. Kucinich. What report? You're saying this never 
happened? You never said that?
    Ambassador Bolton. That's correct.
    Mr. Kucinich. Well, let me ask you this, are you confident 
that we have the information that we need to be able to ratchet 
up the conflict with Iran?
    Ambassador Bolton. I think that there are many aspects of 
the Iranian nuclear weapons program and the Iranian ballistic 
missile program that we don't know about. And I think that is 
something that shouldn't give us comfort. It should increase 
our level of concern about the extent to which the Iranians 
have, in fact, accomplished their efforts to master the entire 
nuclear fuel cycle and to derive and to develop ballistic 
missile capability of longer and longer range and greater and 
greater accuracy.
    Mr. Kucinich. Are you familiar with the report that 
Iranians captured dissident forces who confess to working with 
U.S. troops in Iran? Have you had any discussions with anyone 
about the presence of U.S. troops in Iran? Have you heard any 
complaints about it? Has anybody asked you about it? Do you 
have any interest in it?
    Ambassador Bolton. I certainly have interest in it. With 
respect to every other question I have been asked, I have only 
ever heard it from you today.
    Mr. Shays. Mr. Lynch has the floor.
    Mr. Lynch. Thank you, Mr. Chairman, Mr. Ambassador, I just 
want to go over a distinction that we have had here today in 
this discussion.
    As I said before, you did make it very clear that you had 
no involvement in drafting the H.R. and the fact sheet, for Mr. 
Negroponte.
    However, as my team member, Mr. Waxman, pointed out, there 
is a State Department Inspector General memo that indicates 
that you tasked your staff, the Bureau of Nonproliferation, to 
participate in the preparation. So was the distinction here 
that you didn't do it personally, but that your staff actually 
helped with the fact sheet or the remarks by Mr. Negroponte?
    Ambassador Bolton. If I could make two comments on that. 
No. 1, I don't think I actually followed through and asked the 
Nonproliferation Bureau to do that. I think ultimately the 
Bureau of Public Affairs asked them to do it.
    Second, in terms of the relationship between Under 
Secretaries' bureaus at the State Department, the four 
Assistant Secretaries that reported to me also reported 
directly to the Secretary and the Deputy Secretary. So I 
wouldn't in any way call them my office.
    They were independent bureaus that had their own reporting 
chain to the Secretary. They were under my general supervision, 
but as is the case with all Under Secretaries and this may be a 
striking comment on the management of the State Department, but 
I never considered those bureaus my office.
    In any event, I didn't see the fact sheet until well after 
it was prepared.
    Mr. Lynch. I have limited time so I think you have 
answered----
    Ambassador Bolton. And it was a fact sheet suppressed----
    Mr. Lynch. I have limited time. I think you have answered. 
So even though they are under your supervision for all intents 
and purposes, you are saying they weren't under your control 
and that this was done without your knowledge--do you see the 
irony here Mr. Ambassador? Do you see the irony here? We are 
trying to induce accountability with the U.N.
    We are trying to tell Kofi Annan to get his act together 
and to take responsibility, and to be accountable, and yet, 
here we are on this merry-go-round about, you have people under 
your supervision, but they are not under your control, and it 
is just under circumstances that would require very close 
scrutiny and supervision, this is an issue of major U.S. 
policy.
    Ambassador Bolton. Preparation of a fact sheet, 
Congressman, is not a major issue of U.S. policy. This was a 
staff level function----
    Mr. Lynch. When we are making much decisions whether or not 
to go to war because Iraq is trying to acquire nuclear weapons; 
that is a major issue.
    Ambassador Bolton. Congressman. Congressman, this was not a 
policy issue of any significance. It was the preparation of a 
fact sheet to hand to the press about the Iraqi declaration of 
their weapons.
    Mr. Lynch. They were try trying to persuade the Congress to 
approve the War Powers Act. That was what this is about.
    Mr. Shays. Mr. Van Hollen, the gentleman's time has 
expired. Mr. Ambassador, Mr. Van Hollen will have 3 minutes. I 
will have 3 minutes. And thank you for spending so much time 
with us.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Thank you Mr. Ambassador. I would just point out that fact 
sheet was the first time where the United States publicly made 
the claim that Iraq was seeking uranium from----
    Ambassador Bolton. I thought you actually said a moment ago 
or maybe Mr. Kucinich did that the fact sheet was based on 
Ambassador Negroponte's statement.
    Mr. Van Hollen. First of all, Mr. Ambassador, I did not say 
that. I don't know who said that. But I did not say that. But 
my question to you, if I could just get back to my earlier 
question, with respect to the President's statement where he 
acknowledged that the fact that we didn't find weapons of mass 
destruction in Iraq created some credibility issues with 
respect to claims the United States has made with their 
intelligence. Yes or no? Have you seen any evidence of that in 
your discussions with your colleagues at the United Nations?
    Ambassador Bolton. I think some people have raised it. I 
think they are some of the same people who would object to 
doing what is necessary on Iran in any case, and I would say 
that, in fact, most of the information that is under 
consideration before the Security Council now on Iran has been 
disclosed in publicly available reports from the International 
Atomic Energy Agency.
    Mr. Van Hollen. Let me ask the question I raised in my 
opening statement: I hope we are successful in getting the 
Security Council to take actions and impose economic sanctions 
against Iran.
    If we are not successful in getting U.N. Security Council 
to do that, how successful could we be, would we be able to 
exert any leverage if you put together a group of nations 
outside the U.N. Security Council action to take economic, 
impose economic sanctions against Iran, or is that really a 
nonstarter?
    Ambassador Bolton. I think that would be critical if when 
we get to the point of trying to have the Council adopt 
targeted sanctions against Iran, if we were not successful in 
getting the extent and scope of the sanctions that we wanted, 
if we were faced with a veto by one of the permanent members, 
if for whatever reason the Council couldn't fulfill its 
responsibilities, then I think it would be incumbent on us, and 
I am sure we would press ahead, to ask other countries or other 
groups of countries to impose those sanctions because the--for 
one thing, the Iranians have been very effective at deploying 
their oil and natural gas resources to apply leverage against 
countries to protect themselves from precisely this kind of 
pressure. In the case of countries with large and growing 
energy demands like India, China and Japan, the Iranians are 
trying to induce them to make extensive capital investments, 
such as Japan in the Azadegan oil field. It would make it very 
difficult for those countries or other countries similarly 
situated to do what they otherwise would do on a major 
proliferation question.
    Mr. Van Hollen. And with respect to Sudan, if we are unable 
to get the Security Council to take further action against 
Sudan, I am glad they took the action they did against the four 
Sudanese Government officials, but if we are not able to get 
the Security Council to take other collective action against 
Sudan, whatever form it might take, to what extent is the 
United States going to work to put together a coalition of 
nations that would do so?
    Ambassador Bolton. Well, I think this is certainly 
something I would have to look at. We have relied on the 
request of the African Union, and I think the overwhelming 
international opinion, we have relied on the mediation efforts 
of Salim Salim ina BUJ JA to try and work out a peace agreement 
among the government of Sudan, the three major rebel groups and 
others.
    Now, that target date for the completion of the Abuja 
agreement was Sunday, April 30th. And I think, as everybody 
knows, it has been extended for a couple days, Deputy Secretary 
Zoellick has flown out there. It looks to be in difficult 
straits, but we will have to see what happens. And I think the 
question of what we do next is in part dependent on the 
outcome. And I don't want to give you an overly long answer, 
but there are three possible outcomes to Abuja. One is a peace 
agreement that the parties comply with fully. The second is a 
peace agreement that most comply with but some do not. And the 
third is either no agreement or an agreement that everybody 
signs and nobody complies with.
    The circumstances of what we would do in terms of the U.N. 
peacekeeping mission in Darfur and the delivery of humanitarian 
assistance depend critically on which environment we are 
talking about.
    So we have been pushing the U.N. Department of Peacekeeping 
Operations to do contingency planning for all of those 
potential outcomes so that whichever it turns out to be, we are 
not slowed down in our efforts to effect a transition, rapid 
transition between the African Union mission in Darfur and the 
U.N. mission we expect to follow.
    Mr. Shays. Thank you. I am going to claim my time and just 
to one, to thank you Ambassador Bolton.
    Ambassador, you described the dysfunction of the U.N. 
before anyone else did.
    And now I think most people recognize it. You've been 
tremendously criticized over the years for doing that. I want 
to just say as one Member of Congress, I appreciate it. You are 
just being straightforward, and the irony is that now you want 
to reform the U.N.; some people say you want to destroy it.
    You know, you want the system to work properly. And we have 
had a golden opportunity to which I think we have used some of 
it well, to understand the significance as it relates to Iran 
and Sudan, if people don't want military force to be used, you 
have to be able to depend on sanctions.
    And I am struck by the fact though that you can never take 
off the table military force.
    I wish President Carter had not said we will not use 
military force to have Iran free the diplomats it took as 
hostages. What an outrage to have taken diplomats. They must 
have said, America, what a country. The bottom line is you had 
President Reagan come in and just say the truth. Something you 
might have said. He said taking diplomats is an act of war, and 
we will treat it as such. He didn't say what he would do. And 
the diplomats were returned. I happen to believe the Libyan 
president saw what happened to Saddam and said, you know what, 
I like diplomacy. But he knew behind there was the potential 
that he could have been replaced.
    So I happen to believe you can never take off the table 
your military force. If Saddam ever thought we would get him 
out of Kuwait, he never would have gone in. And I believe if he 
ever believed that we would remove him from power, he would 
like gladly be in the Riviera with his billions of dollars. But 
he didn't believe it because the French and Russians and others 
told him we weren't coming in.
    That is the tragedy of it. So I understand why you are 
reluctant to say, force is on the table. But you are the 
diplomat, but I hope we back up your diplomacy with strong 
potential to help people realize particularly the Europeans if 
you are not going to go along with sanctions, what do you leave 
as the end result, and then to know, my God they get the 
weapon. They get a nuclear weapon, then I am pretty sure that 
you will have Saudi Arabia and others say the same thing. So 
this is a huge issue. I wish we had focused a little more on 
that aspect of this because that is the bottom line for me.
    I have people who marched in my office very concerned about 
what has happened in Sudan. But if Khartoum does not believe 
that there is going to be action taken against them, I don't 
know how diplomacy works. And I guess what I would love is for 
you just to tell me in concluding with Iran and with the Sudan, 
you are working diplomatically to get an agreement.
    Do you feel that you are making headway? Do you feel that 
you are just kind of in Never Never Land right now? Where are 
we at?
    Ambassador Bolton. Well, I think both in the case of Iran 
and really in the case of Darfur as well, that these constitute 
tests for the Security Council.
    In the case of Iran, this is a perfect storm of a country 
that for decades has been the leading state financier of 
terrorism, one of the leading state sponsors of terrorism in 
the world, providing funds and equipment and weapons to groups 
like Hamas and Hezbollah and Palestinian Islamic Jihad, at the 
same time a government that now seeks to acquire nuclear 
weapons and advance ballistic capability, it is a country led 
by a president who denies the existence of Holocaust, calls on 
Israel to be wiped off the map, who held a seminar last year 
called the world without the United States. This is not a man 
you want to have with his finger on the nuclear button, or with 
the capability of delivering nuclear weapons to terrorist 
groups that could transport them around the world.
    So if you believe, as we do, that terrorism and the 
proliferation of weapons of mass destruction are the two 
greatest threats to international peace and security that we 
face, this is a test for the Security Council to deal with Iran 
and to bring an end to its nuclear weapons program.
    In the Sudan, you have a government that has been 
responsible over the years for the deaths of more than 2 
million of its citizens in the southern part of Sudan, that is 
now subject of a comprehensive peace agreement we hope will 
hold, but having engaged in genocide and murder and causing 
hundreds of thousands if not millions of people to have to 
leave their homes in the Darfur region, that has put off the 
Security Council in ways large and small.
    A couple of weeks ago, they refused, the government of 
Khartoum refused to give visas to four military planners from 
the U.N. Department of Peacekeeping Operations so they could 
get on to the ground in Darfur to do the kind of kicking of 
tires and looking at the terrain and everything that would help 
facilitate planning. So, so far, the government has been able 
to withstand our efforts there.
    We will see if the sanctions that we recently imposed and 
other ones that may come might have an influence on their 
thinking. But the Security Council, in many respects, the same 
problem we faced in other situations, is the Security Council 
serious about its resolutions, or is it not? That is the test 
in Sudan.
    Mr. Shays. Well, I thank you very much for being here. You 
have been very responsive I think, and we appreciate, I 
appreciate deeply the work you do as an ambassador. We are 
going to have a 5-minute recess and then convene with our 
second panel. Thank you.
    Ambassador Bolton. Thank you Mr. Chairman.
    [Recess.]
    Mr. Shays. I would like to call this hearing to order again 
and to announce our second panel. We have Mr. Joseph A 
Christoff, Director, International Affairs and Trade Team, U.S. 
Government Accountability Office; Mr. Carne Ross, director, 
Independent Diplomat; Dr. George A. Lopez, senior fellow and 
professor of political science, the Joan B. Kroc Institute for 
International Peace Studies, University of Notre Dame.
    Gentlemen, thank you for being here. As is our custom, I 
need to swear you in. So if I could have you stand please.
    Raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. I will note for the record our witnesses have 
responded in the affirmative.
    You all were at the first panel of this hearing, and so you 
have a sense of some of the questions, though some Members 
aren't here right now, particularly as they relate to the issue 
of sanctions and so on.
    I am going to invite each of you to make your statement. We 
will have whatever time we need to make sure we cover each of 
the territories. And if I don't ask you a question that needs 
to be asked, but you have heard this question earlier and you 
want to answer it, you can ask yourselves and then answer it.
    I want to make sure that we have on the record information 
about the significance of sanctions if they are going to work, 
how they work, when they fail, if we can do that, how you back 
up sanctions so that they do what we want to do.
    I will say this, I am very fearful that if sanctions don't 
work, we leave our government options that are not very 
tasteful.
    So with that, Mr. Christoff, we will have you start.

  STATEMENTS OF JOSEPH A. CHRISTOFF, DIRECTOR, INTERNATIONAL 
AFFAIRS AND TRADE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
   CARNE ROSS, DIRECTOR, INDEPENDENT DIPLOMAT; AND GEORGE A. 
 LOPEZ, SENIOR FELLOW AND PROFESSOR OF POLITICAL SCIENCE, THE 
    JOAN B. KROC INSTITUTE FOR INTERNATIONAL PEACE STUDIES, 
                   UNIVERSITY OF NOTRE DAME.

                STATEMENT OF JOSEPH A. CHRISTOFF

    Mr. Christoff. Thank you, Mr. Chairman, and thanks for 
inviting GAO to this important hearing.
    Today, I would like to discuss specifically a report that 
we issued last week on lessons learned from the Oil-for-Food 
Program and how some of these lessons learned bear not only on 
future sanctions but on U.N. reform efforts.
    My comments are based on three reports the GAO issued last 
week, both on the Oil-for-Food Program and U.N. reform issues.
    Let me summarize three lessons from the Oil-for-Food 
Program that highlight how a positive control environment can 
improve future sanctions. First, the sanctioned country should 
not be allowed undue control over the terms of the sanctions 
program. In the Oil-for-Food Program, the U.N. ceded control 
over key aspects of the program to the former regime. For 
example, the U.N. gave Iraq, rather than an independent agent, 
the authority to negotiate contracts with companies that 
purchased oil or supplied commodities.
    The second lesson learned, takes into consideration the 
economic impact that sanctions have on neighboring countries. 
U.N. member states, including those bordering Iraq, were 
responsible for enforcing the sanctions. However, Iraq's 
neighbors circumvented the sanctions because they were 
economically dependent on Iraq for trade. Trade agreements, for 
example, enabled Jordan to purchase heavily discounted oil from 
Iraq in exchange for up to $300 million in Jordanian goods. 
Iraq also smuggled oil through Turkey and Syria, and as a 
result, Iraq obtained $5 to $8 million in illegal oil revenues.
    The third lesson learned is that all aspects of sanctions 
must be enforced with equal vigor. The U.N. was successful in 
keeping military items out of Iraq. However, the U.N. did not 
adequately examine contracts for inflated prices, which enabled 
Iraq to obtain between $1.5 and $3.5 billion in kickbacks.
    The Oil-for-Food Program also provides lessons for 
addressing U.N. reform issues.
    The first lesson is that agencies responsible for U.N. 
programs must have clear lines of authority. The U.N. managed 
the Oil-for-Food Program with multiple entities having unclear 
lines of authority. For example, the Secretariat's Office of 
Iraq's program was not responsible for rejecting contracts 
based on pricing concerns. In addition, U.N. inspectors did not 
have the authority to inspect goods imported into Iraq to 
verify their price and quality.
    The second lesson learned is that risk must be assessed as 
programs expand in scope and complexity. In 1996, the Oil-for-
Food Program began as a 6-month effort to deliver emergency 
food and medicine to Iraq. However, it expanded into a 6-year, 
$31 billion effort to build houses, construct irrigation 
systems, purchase oil equipment and fund sports and religious 
facilities. The U.N. did not assess how this expansion placed 
the Oil-for-Food Program at greater risk for waste, fraud and 
abuse.
    And finally, monitoring and oversight must be conducted 
continuously, for the $67 billion Oil-for-Food Program, the 
Office of Internal Oversight Services dedicated only two to six 
auditors. This contrasts with the 160 auditors that the Volcker 
Commission said this audit agency should have deployed.
    In addition, the independence of the internal auditors was 
compromised. The Office of Iraq Program denied the internal 
auditors funds to audit the Oil-for-Food Program in central and 
southern Iraq where most of the money was being spent.
    So, in conclusion, the Oil-for-Food Program does offer 
several lessons for deciding future sanctions and strengthening 
existing U.N. programs. Of utmost importance is the need to 
establish and apply a sound internal control framework whereby 
roles are clearly articulated, risks are mitigated and 
oversight is continuous.
    Mr. Chairman, that concludes my statement. I will be happy 
to answer your questions.
    [The prepared statement of Mr. Christoff follows:]
    [GRAPHIC] [TIFF OMITTED] 29792.070
    
    [GRAPHIC] [TIFF OMITTED] 29792.071
    
    [GRAPHIC] [TIFF OMITTED] 29792.072
    
    [GRAPHIC] [TIFF OMITTED] 29792.073
    
    [GRAPHIC] [TIFF OMITTED] 29792.074
    
    [GRAPHIC] [TIFF OMITTED] 29792.075
    
    [GRAPHIC] [TIFF OMITTED] 29792.076
    
    [GRAPHIC] [TIFF OMITTED] 29792.077
    
    [GRAPHIC] [TIFF OMITTED] 29792.078
    
    [GRAPHIC] [TIFF OMITTED] 29792.079
    
    [GRAPHIC] [TIFF OMITTED] 29792.080
    
    [GRAPHIC] [TIFF OMITTED] 29792.081
    
    [GRAPHIC] [TIFF OMITTED] 29792.082
    
    [GRAPHIC] [TIFF OMITTED] 29792.083
    
    [GRAPHIC] [TIFF OMITTED] 29792.084
    
    [GRAPHIC] [TIFF OMITTED] 29792.085
    
    [GRAPHIC] [TIFF OMITTED] 29792.086
    
    [GRAPHIC] [TIFF OMITTED] 29792.087
    
    [GRAPHIC] [TIFF OMITTED] 29792.088
    
    Mr. Shays. Thank you very much.
    Mr. Ross, I think that I didn't provide enough information 
when I said you're an independent diplomat. Can you just give 
us a little bit of your background before you speak? I don't 
usually ask witnesses to do that. But it would be helpful for 
the record.
    Mr. Ross. Delighted to, Mr. Chairman, thank you very much.
    Mr. Shays. I can sense from that accent something already.
    Can you move the mic a little closer to you, sir.
    Mr. Ross. Is that close enough?
    Mr. Shays. That is good.

                    STATEMENT OF CARNE ROSS

    Mr. Ross. Thank you.
    My testimony, my summary of my testimony actually retells 
my history on this subject. But what I am doing now is, I run a 
nonprofit diplomatic consultancy which advises various 
governments and political groups on diplomacy.
    Mr. Shays. So we will hear a little bit about it in the 
testimony.
    Mr. Ross. Sure.
    Mr. Chairman, I was a member of the British Foreign Office 
from 1989 until my resignation in 2004. From late 1997 to June 
2002, I was a diplomat in charge of Iraq policy, including 
weapons inspections and sanctions at the British Mission to the 
U.N. in New York.
    There, I was intimately involved in policymaking and 
negotiations on Iraq and other Middle East policy at the U.N. 
Security Council.
    I also played a close part in discussions between the 
British and U.S. Governments over these years on all aspects of 
policy toward Iraq. I resigned from the British Foreign Service 
in 2004 after giving testimony in secret to the official 
inquiry in the United Kingdom into the use of intelligence on 
Iraq's weapons of mass destruction, the so-called Butler 
review.
    There are several key lessons from my experience of 
sanctions on Iraq and the Oil-for-Food Program. My written 
testimony goes into much greater detail.
    First, any sanctions regime must be carefully targeted on 
those individuals whose behavior you are trying to effect. 
Sanctions on Iraq were crude and harmed the wrong people, 
namely the civilian population. Sanctions did prevent Iraq from 
rearming with weapons of mass destruction or conventional 
weapons, as both my and the U.S. Governments believed in all 
the years I worked on the issue. But thanks to sanctions, 
busting the Iraqi regime was largely impervious on the effects 
of sanctions, and Iraq failed fully to comply with its 
obligations to incorporate with the weapons inspectors until 
threatened by invasion in 2003.
    There are many options available other than comprehensive 
sanctions, including financial sanctions, travel bans, arms 
embargoes, etc. Such smart or targeted sanctions should always 
be preferred to comprehensive economic sanctions.
    Second, while it is easy to blame the United Nations for 
the failing of the Oil-for-Food Program, and these were maybe, 
the U.N. member states, too, failed in their responsibility to 
enforce police sanctions on Iraq. I need here to correct a 
misunderstanding that seems to be widespread here. While it was 
the U.N.'s responsibility to supervise the Oil-for-Food 
Program, it was not--repeat, not--the U.N.'s job to police 
sanctions. That responsibility belonged to the member states. 
This would also apply to future sanctions regimes that the 
Security Council might agree to.
    Evidence, such as that collected by the U.S. Government's 
Iraq Survey Group showed that the Saddam regime largely 
subsisted on illegal oil exports to Jordan, Turkey, Syria and 
elsewhere, but primarily the first of these two.
    Revenue from this source amounted to some $12 billion, far 
exceeding the approximately $1.7 billion it gained from abuse 
of the Oil-for-Food Program.
    Other members of the U.N. Security Council often blocked 
corrective action against sanctions busting, but the United 
States and British governments turned a blind eye to smuggling 
by their allies Turkey and Jordan, thus in effect helping the 
Saddam regime to survive.
    Officials in both the United States and British Governments 
frequently internally recommended comprehensive action on 
sanctions busting, but for various reasons, it was never 
attempted. If we had acted on this illegal smuggling, we could 
have severely undermined the Saddam regime without the need for 
military intervention.
    Third, sanctions policy is complicated and difficult. It 
requires a major effort to engineer, amend and supervise 
sanctions. Volcker's inquiry into the Oil-for-Food Program took 
18 months and employed over 100 skilled investigators, but at 
the time, both the United States and U.K. Governments employed 
no more than a handful of officials to monitor the program and 
sanctions, and they were often poorly equipped for the complex 
technical issues such as border-monitoring, tools or 
technologies which arose.
    Those officials were overwhelmed by the size and complexity 
of the program. Senior officials and ministers paid the policy 
far too little attention even though it dealt with the primary 
security concern.
    Moreover, we should have paid more intrusive attention to 
what the U.N. was doing in the program. This failure was 
partially a function of our lack of capacity. But the effort, 
however substantial, to supervise and make effective any 
sanctions policy would always be considerably less than that of 
going to war.
    We should, moreover, be conscious of the sometimes perverse 
effect of sanctions: By casting him as a resistor to United 
States and Western pressure, sanctions in some ways reinforced 
Saddam Hussein's hold, however. The Oil-for-Food Program gave 
his regime control over food rations and other essential 
supplies to his people strengthening his already repressive 
grip. In some ways, therefore, sanctioning Saddam to the extent 
that some came to believe that we, the U.K. and United States, 
had an interest in keeping him in power.
    More generally, the effectiveness of any sanctions regime 
is in part a function of their legitimacy. By the late 1990's, 
comprehensive sanctions were seen by many in the international 
community as disproportionate and cruel in their effects.
    When Iraq had largely though not fully complied with its 
WMD obligations, this undermined support for the sanctions and 
made our job in enforcing sanctions very much more difficult. 
Sanctions should be proportionate and well targeted if they are 
to enjoy the broad international support for them to be 
effective. In this context, most sanction regimes are seen in 
isolation. United States and British failure to enforce 
Security Council decisions elsewhere in the Middle East, 
particularly in Israel and Palestine, undermined our efforts, 
undermined our demands for their enforcement in Iraq, as it 
does to this day in other cases. We will be more effective in 
any particular case if we were seen as consistent in all cases.
    But my most important point is the last. Sanctions and the 
manipulations of the Saddam regime caused considerable human 
suffering in Iraq. The Oil-for-Food program, despite its many 
problems, helped ameliorate the suffering, but it was not 
implemented until 1996 when already considerable damage had 
been done. Sanctions helped destroy Iraq's economy and 
infrastructure, damage for which Iraq and the U.S. taxpayer is 
still paying today.
    Any sanctions for a regime should be carefully designed to 
minimize human suffering. The lessons from comprehensive 
sanctions on Iraq is clear, we should not make this mistake 
again. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ross follows:]
    [GRAPHIC] [TIFF OMITTED] 29792.089
    
    [GRAPHIC] [TIFF OMITTED] 29792.090
    
    [GRAPHIC] [TIFF OMITTED] 29792.091
    
    [GRAPHIC] [TIFF OMITTED] 29792.092
    
    [GRAPHIC] [TIFF OMITTED] 29792.093
    
    [GRAPHIC] [TIFF OMITTED] 29792.094
    
    [GRAPHIC] [TIFF OMITTED] 29792.095
    
    [GRAPHIC] [TIFF OMITTED] 29792.096
    
    [GRAPHIC] [TIFF OMITTED] 29792.097
    
    [GRAPHIC] [TIFF OMITTED] 29792.098
    
    [GRAPHIC] [TIFF OMITTED] 29792.099
    
    [GRAPHIC] [TIFF OMITTED] 29792.100
    
    [GRAPHIC] [TIFF OMITTED] 29792.101
    
    [GRAPHIC] [TIFF OMITTED] 29792.102
    
    [GRAPHIC] [TIFF OMITTED] 29792.103
    
    [GRAPHIC] [TIFF OMITTED] 29792.104
    
    [GRAPHIC] [TIFF OMITTED] 29792.105
    
    [GRAPHIC] [TIFF OMITTED] 29792.106
    
    [GRAPHIC] [TIFF OMITTED] 29792.107
    
    [GRAPHIC] [TIFF OMITTED] 29792.108
    
    Mr. Shays. Thank you, Mr. Ross. I appreciate your 
statement.
    Mr. Christoff, I jumped so quickly to Mr. Ross, I meant to 
say as well we appreciate the good work, and that we 
appreciated your statement as well.
    Dr. Lopez.

                STATEMENT OF DR. GEORGE A. LOPEZ

    Dr. Lopez. Mr. Chairman, thank you very much. I've had the 
privilege over the last 13 years of serving as an independent 
scholar and a member of a research that has tried to 
systematically investigate United Nations sanctions, and it's 
that knowledge and experience I'd like to bring to this hearing 
today.
    Mr. Shays. Well, that's very welcomed, and it is extensive, 
and we appreciate your presence. Thank you.
    Dr. Lopez. Thank you.
    Can the Congress and the American people have confidence 
that U.N. imposed sanctions in 2006 and beyond be a useful and 
powerful diplomatic tool? I believe we can. My colleagues have 
addressed the questions of the Volcker Report and the lessons 
learned from there. I'm not going to repeat that nor repeat 
what's in my larger written testimony, but I want to have a 
look at two questions. One, the first is understanding that one 
of the outcomes of the Volcker Report is, particularly in 
report No. 1, a clear delineation of responsibility in what is 
called the United Nations system regarding sanctions 
implementation which belong to the Secretariat versus those 
which belong to the Council versus those which belong to the 
member states. I believe a dispassionate reading of the Volcker 
Report underscores the fundamental reality of United Nations 
sanctions, but they're only as effective as the willingness and 
ability and fairness, as Carne Ross has said, of their 
application by member states and a willingness to enforce them.
    In the Iraqi case--and we had instances of misinterpreting 
this even in our first hour--the Security Council's 
determination was first to hold together a regional coalition 
of states bent on denying Saddam Hussein's ability to acquire 
military goods, and then to maintain a flow of humanitarian 
relief to the Iraqi people. That the entire sanctions process, 
from Oil-for-Food on, was politicized to achieve this end or 
that deals were struck in 1996, when Oil-for-Food was already 
on the table to provide relief in 1994, is to engage in a kind 
of revisionist history which fails to look at a critique of 
U.N. agencies which may be misplaced, which ought to be more 
directly placed on the burden of the member states to strike 
deals to undermine what the Secretariat brought to them and to 
question the Council's own action by their own behavior.
    Having said that, I think the Volcker Report and current 
proposals before us for U.N. reform offer a rich ground by 
which we can have added confidence that ethical behavior at the 
individual level, Secretariat behavior, and particularly member 
state behavior, may be seen as more competent in the 
administration of future sanctions regimes. But since Carne 
Ross ended his own presentation with talking about greater and 
smarter targeted sanctions, let me draw to the committee's 
attention the fact that, while all of this controversy for Oil-
for-Food and the terrible reality of the Iraqi episode and its 
uniqueness was unfolding in the 1990's, so, too, was a 
secondary process behind the scenes. Beginning in particular 
with the initiatives of various governments from 1998 on, there 
has been under the radar screen a development of a great deal 
of expertise. I believe that one can claim that the strongest 
reason for congressional confidence and economic sanctions as 
diplomatic tools, it emerges from a past decade of meetings of 
diplomats, sanction specialists, experts in banking, 
commodities trade, law enforcement, transportation and 
representatives of international organizations who have worked 
together in concert to define, develop and revise substantial 
proposals in what's called smart or targeted sanctions. 
Beginning with a very important initiative by the Swiss in 1998 
in the Interlocken process, continuing with German input in 
arms controls issues, and finally a Swedish initiative to 
improve targeted economic sanctions as well as aviation and 
travel bans, we have great confidence and now expertise within 
the U.N. system that were merged in the kind of resolution we 
saw last week; that is, the ability of the Security Council to 
target individuals, not nations, what we see out of Security 
Council 1373 and the work out of the counterterrorism 
committee, the ability of the United Nations system to now 
target real offenders and free itself from the burden of the 
economic hardships that were cast in the Iraqi case. The 
ability to get to real offenders with smart targeted measures 
is at a higher ability than ever before.
    The imperative of smart sanctions I think is self-evident; 
that is, the nature of the diverse offensive that we experience 
now we call on the Security Council and its members to apply 
new and important techniques. We did this against UNITA armed 
faction in Angola, against RUF rebels and the Khmer Rouge. 
We're doing it against terrorist groups and entities which 
support terrorist groups. Our means of imposing, implementing, 
monitoring and refining sanctions are more robust now, Mr. 
Chairman, than ever before. The Volcker Committee's accounting 
system recommendations will contribute to this, but the 
strength of this lies independent of that, it lies in 
independent reform processes that have developed over the last 
6 or 7 years, strongly backed by not only nongovernmental 
organizations, but research units in Europe and the United 
States.
    The importance of the Oil-for-Food scandal is that we need 
credibility and ethical behavior at every level, but we also 
need tremendous competence in what might be called appropriate 
fashioning of sanctions at the policy level. The ongoing task 
of United Nations reform as it bears on sanctions is that now 
we have the technical means we have not had previously, and 
certainly didn't have at our disposal in 1996 to move 
sanctions, whether they be in Sudan, Iran or elsewhere against 
real offenders, and improve the prospects that sanctions may 
contribute to global peace and security.
    Thank you.
    [The prepared statement of Dr. Lopez follows:]
    [GRAPHIC] [TIFF OMITTED] 29792.109
    
    [GRAPHIC] [TIFF OMITTED] 29792.110
    
    [GRAPHIC] [TIFF OMITTED] 29792.111
    
    [GRAPHIC] [TIFF OMITTED] 29792.112
    
    [GRAPHIC] [TIFF OMITTED] 29792.113
    
    [GRAPHIC] [TIFF OMITTED] 29792.114
    
    [GRAPHIC] [TIFF OMITTED] 29792.115
    
    [GRAPHIC] [TIFF OMITTED] 29792.116
    
    [GRAPHIC] [TIFF OMITTED] 29792.117
    
    [GRAPHIC] [TIFF OMITTED] 29792.118
    
    [GRAPHIC] [TIFF OMITTED] 29792.119
    
    [GRAPHIC] [TIFF OMITTED] 29792.120
    
    [GRAPHIC] [TIFF OMITTED] 29792.121
    
    [GRAPHIC] [TIFF OMITTED] 29792.122
    
    [GRAPHIC] [TIFF OMITTED] 29792.123
    
    [GRAPHIC] [TIFF OMITTED] 29792.124
    
    [GRAPHIC] [TIFF OMITTED] 29792.125
    
    [GRAPHIC] [TIFF OMITTED] 29792.126
    
    [GRAPHIC] [TIFF OMITTED] 29792.127
    
    [GRAPHIC] [TIFF OMITTED] 29792.128
    
    [GRAPHIC] [TIFF OMITTED] 29792.129
    
    [GRAPHIC] [TIFF OMITTED] 29792.130
    
    [GRAPHIC] [TIFF OMITTED] 29792.131
    
    [GRAPHIC] [TIFF OMITTED] 29792.132
    
    [GRAPHIC] [TIFF OMITTED] 29792.133
    
    [GRAPHIC] [TIFF OMITTED] 29792.134
    
    [GRAPHIC] [TIFF OMITTED] 29792.135
    
    [GRAPHIC] [TIFF OMITTED] 29792.136
    
    [GRAPHIC] [TIFF OMITTED] 29792.137
    
    [GRAPHIC] [TIFF OMITTED] 29792.138
    
    [GRAPHIC] [TIFF OMITTED] 29792.139
    
    [GRAPHIC] [TIFF OMITTED] 29792.140
    
    Mr. Shays. Thank you so much. I'm really looking forward to 
the dialog we're going to have. I think we've got a great mix 
here and some real pros. And I think the issues are absolutely 
huge, absolutely huge. I mean, we're talking about how we 
succeed without going to war, it seems to me.
    With that, Mr. Lynch, I'm going to invite you--and I'm 
going to do 10-minute rounds of questions with three Members. 
That way we can kind of get into it a little better. And then 
I'm going to go to you, Mr. Van Hollen.
    Mr. Lynch. Thank you, Mr. Chairman.
    First of all, I want to thank the panel for helping the 
committee with its work.
    In looking at the Iraq Oil-for-Food program example, there 
seem to be two levels of failure. One, it appears that we set 
up a program that empowered Saddam Hussein and gave him a very 
important part in that whole process. I know that we began to 
negotiate around an Oil-for-Food program back in 1991. Finally, 
after a number of failed attempts, we came up with this 
program, but unfortunately it did give considerable leverage to 
Saddam Hussein. And so that was one weakness, probably a fatal 
weakness in the process.
    But then there was also the implementation aspect of this; 
in other words, after the program was set up we still had an 
opportunity at the Security Council to reject, to question, to 
delay contracts, and yet I think the numbers are out of 30,000 
contracts, I believe maybe two or three were ultimately 
rejected, and they were probably not for financial reasons but 
probably because of prohibited trade items.
    What I'm asking you is, how much of those two areas--how 
much--let's just begin with the first one. The fact that we 
empowered Saddam to be a player here and we allowed him to 
negotiate oil prices and contracts and all that, how much of 
that doomed this thing to failure? And are there 
recommendations from the panel in terms of the next time we 
have to do something like this or something very closely 
similar to it, not necessarily the exact same thing. So Mr. 
Christoff.
    Mr. Christoff. I would begin with that was probably the 
greatest weakness and failure from the very beginning of the 
program, allowing a sanctioned regime to set the terms and 
conditions of the program that ensued. And I think clearly that 
is one of the lessons learned, that in the future if a regime 
is sanctioned, that says something, they should not be given 
the green light to dictate the terms of how they were going to 
go about it and ultimately negotiating contracts that including 
kickbacks and getting commissions in return as well.
    So in auditing terms we talked about the control 
environment, and you have to set the right tone at the top. And 
in effect you didn't set the tone at the top if you allowed the 
sanctioned regime to set that tone.
    Mr. Lynch. All right, all right. Mr. Ross.
    Mr. Ross. I think these are very big and complicated 
questions. I mean, one of the problems with the Iraq sanctioned 
policy in the Oil-for-Food program was that policy was ad hoc 
over a very long period. Never did officials sit down and 
design the perfect sanctions program and the ameliorship 
program, which was the Oil-for-Food program, they came sort of 
one after the other; sanctions lasted much longer than anybody 
expected.
    I think to be honest, it's very easy to say that we should 
not have put the power in the hands of the Saddam Hussein to 
distribute food and other goods under the Oil-for-Food. I'm not 
sure, to be honest, there was an alternative. You couldn't have 
gotten U.N. agencies in there to do the distribution. The 
Saddam government would not have allowed it. You had to rely, 
to some extent, on the cooperation of the Saddam government. 
And it's very easy to point fingers at the U.N. for not having 
designed this properly; in fact, it was us, the member states 
of the Security Council, who designed the program. In fact, 
most of the original design of the Oil-for-Food Program was 
done in the British Foreign Ministry, it was not the U.N. who 
designed it. So we should be very clear about where that 
responsibility lies. I think there is a lot to be learned the 
next time around.
    This goes to your second point. In terms of scrutiny after 
the program was implemented, we did not scrutinize contracts 
for financial probity, for potential corruption, kickbacks, all 
the rest of it. We scrutinized them for one thing alone. That 
was duel use goods for the potential to create weapons programs 
of some kind. Even that was an enormous task. I remember our 
office being presented with documents this high just for one 
contract, for say an oil refinery or a water----
    Mr. Shays. You're not exaggerating, literally a few feet 
tall?
    Mr. Ross. No, I'm not exaggerating. It was a massive, 
massive task to scrutinize the contracts, even for duel use 
technologies. And we didn't employ, frankly, enough officials 
to do that. Clearly, in retrospect, we should have employed a 
whole bunch of other officials to scrutinize the financial 
issues and the potential for corruption, which I think, looking 
at Volcker, was much greater than we had realized.
    Mr. Lynch. Dr. Lopez.
    Dr. Lopez. I sat with Iraqi and U.N. and emergency relief 
officials in 1993 and 1994 in assessing humanitarian impact. 
One of the things that struck me in that dialog in 1994 which 
continued to 1995 is that even a reasonable Iraqi public 
official was adamantly opposed for sovereignty reasons to the 
U.N. coming in and managing the entire program. And I asked 
directly in a meeting, so we're going to have continual death 
of babies under five because of the impact of this that in fact 
the sanctioning agency is trying to relieve; and he said 
directly to me, you've partitioned my country in threes, you 
bomb at will, you have control over every economic asset we 
have, and now you want to publicly label your food coming in to 
feed our country; I have to draw the line there. And I think 
that's the strength of a sovereignty argument there, that's not 
to apologize.
    Mr. Shays. I'm sorry to interrupt. Who said that?
    Dr. Lopez. That was an Iraqi official. Now, I don't give 
the Iraqis credibility very much on the way they manage their 
system, but I think Carne's point about the atmosphere in which 
sanctions unfolded; that is, the imperative to have 
humanitarian relief reach Iraqis meant that those officials 
that were forming the system in 1994 to 1996 didn't make deals 
with the devil as they saw it then, they made practical 
political deals in which they were willing to give the Iraqis 
more sovereign control of the resources because the desired 
outcome was to increase the caloric and protein intake of 
people on the ground, which the program's record shows it was 
successful. The lesson I think, whether it be Sudan or Iran, is 
beware of comprehensive sanctions which will immediately have 
humanitarian impact; move instead to more targeted measures in 
which you as the sanctioning agents can control the impact, and 
you rely less and less on local cooperation of those that are 
targeted.
    Mr. Lynch. Right. Let me ask you, given the package of 
reforms that were recommended by the Secretary General on 
Friday that were rejected--and the vote wasn't close, I believe 
it was 108 to 50 something--where do we go from here in terms 
of trying to build a framework of--I think Mr. Van Hollen 
described it as the coalition of the willing on sanctions? Is 
it worthwhile to spend the time within the U.N. to try to get 
the support of those--all those nations to try to put a tight, 
targeted, enforceable sanction in place against a given 
country? Can we do that with the framework that is outside the 
United Nations, NATO or another ad hoc group, given the 
circumstances?
    Mr. Ross. I have to say, I'm a little bit confused by this 
conflation of the U.N. reform issue with that of sanctions. It 
is not the U.N. Secretariat's responsibility to implement 
sanctions or police sanctions, it is the U.N. Member states who 
have that responsibility. If a Chapter 7 resolution is passed 
in the U.N. Security Council, then each state is directly 
legally responsible to ensure that it respects and its 
institution respects whatever sanction measure is agreed.
    The Oil-for-Food Program was a very exceptional thing that 
was given to the U.N. Secretariat to implement on behalf of the 
Security Council. I don't think that exercise should ever be 
repeated, not the least because of the effects that George and 
I have been talking about. I think it's perfectly feasible to 
have an effective sanctions regime agreed in the Security 
Council if a number of conditions apply; namely, that you prove 
that there is a threat to international police and security; 
second, that you've done the political work to build support 
within the Security Council; and third, that your measures are 
seen as appropriate and targeted on the right people and not 
affecting the wrong people.
    Mr. Lynch. I've read your article. It was very well done 
and well stated. Getting consensus on those points may be 
difficult, that's what I'm getting at. Is it----
    Mr. Ross. Well, I think the U.N. reform argument, to be 
frank, sir, is a bit of a red herring. You don't need to get 
agreement on U.N. reform as proposed by the Secretary General 
or the U.S. Government in order to get good effective sanctions 
agreed in the Security Council. If you're talking about 
sanctions on Iran or Darfur, or whatever, those are two very 
separate issues. What you need to get is political consensus in 
the Security Council for what is seen as appropriate, well-
targeted and justified measures. That's an entirely different 
matter.
    Dr. Lopez. And if I might jump off from there, Mr. Lynch, 
the critical dimension here is that sanctions are a means to 
accomplishing a policy. Where sanctions run in trouble--and I 
think have been problematic for U.N. foreign policy in the 
past--is when sanctions in fact become the policy. And at least 
some of the discussion with regard to Iran has been quite 
confusing both in U.S. policy circles and with regard to the 
role of the Security Council in this matter. The goal seems to 
be sanctions on Iran as opposed to what particular outcomes 
we'd like from the Iranians and to ask whether or not sanctions 
would be an effective means.
    I would submit as a student of sanctions that the Iranian 
case is particularly problematic for resolution given the goals 
of denuclearizing Iran, not the least of the reasons being that 
you can in fact get full agreement in either a technical sense 
or in a political sense at the Security Council.
    I direct the subcommittee's attention, for example, to the 
recent work just last week published of Matthew Bond and the 
folks managing the Atom Project out of Harvard, which has 
suggested two different scenarios for the resolution in a 
technical way of uranium enrichment by the Iranians, and that 
particular kind of evidence is the evidence that we're hearing 
discussed by the technical experts associated with the Council 
and the IAEA. In other words, it's going to be difficult to 
build a consensus for sanctions politically when in fact 
there's technical disagreements about how close the Iranians 
are to developing a weapon that would constitute a threat to 
peace.
    The second dimension that the history of sanctions I think 
shows us in this case is that if sanctions imposed are going to 
critically isolate and punish a regime rather than put it in a 
position of more direct engagement with the Council to achieve 
the desired ends, and they provide a nationalistic leader with 
a rally around the flag effect where they can in fact thump the 
Council and thump the Council members for them actually being 
the offenders. I mean, we saw this with Milosevic, we saw this 
with Charles Taylor. There is no reason, knowing what we know 
now, to reinvent the same scenario with a quite erratic Iranian 
leader. And while we don't have responsibility for that Iranian 
leader, we do have responsibility for the outcomes of a policy 
which would only further aggravate a situation rather than 
accomplish our goals.
    Mr. Shays. Thank you, Dr. Lopez. And thank you Mr. Lynch.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and let me thank 
all of you for your testimony.
    Let me just begin with where Dr. Lopez left off at the 
beginning of his comments. And you're right, sanctions are a 
means to accomplish a policy. And if I could just begin by 
asking all of you the question, if you go back historically and 
look at different types the United States or other countries 
have imposed economic sanctions, could you point out in which 
cases you think they were success stories in terms of achieving 
those policies, in which cases they were not success stories, 
and what factors made them successful or unsuccessful? I 
realize it's a broad question, but if you could give it your 
best shot.
    Mr. Christoff. If I could just relate it again to Iraq 
sanctions, which is the focus of many of the testimonies that 
we've given, it gets to the question of targeted sanctions as 
well that my colleagues have spoken.
    Oil-for-Food was an example of where when you do target 
certain things you can be successful. We targeted the ensuring 
that Iraq did not have contracts with dual use items. And in 
fact the United States had about 60 people within DOD, DOE, 
Interior and others who are reviewing those stats and contracts 
to try to weed out dual use items. So in that sense, focusing 
on dual use items was a success, it kept WMD out of Iraq. The 
areas where we didn't do as well are the economic sanctions, 
where we failed to try to take those same contracts and try to 
evaluate whether or not the prices were inflated. We didn't 
have the same vigor, we didn't have the same numbers of 
individuals that were trying to look at the same contracts and 
say well, why are we spending so much money for the import of a 
certain type of wheat when it would be cheaper on the 
international market.
    Mr. Van Hollen. Thank you, Mr. Ross.
    Mr. Ross. To answer your question, Mr. Van Hollen, I will 
take the example of Lockerbie, where sanctions were eventually 
successful for the reason that they were seen as in response to 
a clear egregious act by a member state, the measures taken, 
the sanctions, which were a flight ban and an aviation bans and 
an arms embargo on the Libyan leadership was seen as 
appropriate and targeted.
    And third, and perhaps most importantly, the criteria that 
Libya had to fulfill were clearly defined, mainly that they had 
to hand over the suspects who had been indicted for the 
Lockerbie bombing to trial.
    In the case of Iraq, the criteria for fulfillment of 
Resolution 687 were not terribly well defined, and indeed 
during the sanctions period they would often be confused by 
U.S. Government statements--for instance, by then President 
Clinton--that sanctions would remain on Iraq as long as Saddam 
Hussein remained in power; in other words, they became confused 
with the regime change agenda. And not only the Iraqis, but 
many of the Security Council members would say to us, you keep 
moving the goalpost, what exactly does Iraq have to do? Define 
exactly what they have to do. And this was a constant task for 
us to reiterate those criteria. So I think those things made 
the Libya case a better example to follow.
    Mr. Van Hollen. Thank you.
    Dr. Lopez. I'd certainly concur on the Libyan case. I think 
even respecting Congressman Shay's comment at the end of the 
last session that Khadafi looked around and got a little 
nervous after the spring of 2003, that nervousness, we were 
able to translate that to real action because of almost a 
decade long bargaining process that were generated by sanctions 
and the ability to combine incentives with sanctions. I think 
if you compare the combination of the U.N. action with EU 
action in the first go-round in the terrible Yugoslav war of 
the early 1990's versus the EU sanctions in 2000, 2001 that 
brought Milosevic down essentially, what you have is the 
difference between punitive, real scattered sanctions versus 
more targeted ones and the very important dynamic of providing 
incentives and exceptions to sanctions to those in fact who 
support international policies. So the combination of sanctions 
and incentives I think are critical.
    I don't think the subcommittee should fail to recognize how 
relatively successful the Security Council 1267 Committee, the 
1373 process; that is, the targeted financial sanctions on 
terrorist groups and designated entities, has been to produce 
success.
    The batting average over the course of history may be 
somewhere between .275 and 333. For those of you who are 
baseball fans, that will get you within a multibillion dollars 
being accurate. It may not be as far long in the policy process 
as we'd like, we'd like 90 percent of sanctions cases to be 
effective. We know historically that arms embargoes are a sieve 
and they're a tragedy, but now we know something about how to 
improve them, but in the 1990's this was a scandalous failure.
    Mr. Van Hollen. Thank you.
    Mr. Ross, I'd just like to ask you a couple of questions 
about your role at the U.N. on behalf of the British 
government. And as I understand it from your testimony, you are 
also responsible for the liaison with the U.N. weapons 
inspectors.
    I raised a number of questions with Ambassador Bolton with 
respect to the fallout for the United States and others in the 
international community from the failures in Iraq, specifically 
with respect to the failures of our claims about the existence 
of weapons of mass destruction to prove true, and the 
implications there for our efforts to date and in the future 
with respect to making claims, and also the concern at the 
United Nations that resolutions adopted may at some point be 
used by the United States or another country as a point for 
unilateral military action, and that may be something that 
makes other nations a little leery about trying to take action 
with respect to economic sanctions. Do you have any comments on 
that?
    Mr. Ross. Well. I agree with everything you said. I think 
U.S. arguments that Iran is a threat to international peace and 
security are severely undermined by the discredited evidence 
over Iraq. That is one problem with which I highly agree with 
your analysis.
    Second, on the legal justification argument, I think that's 
an important and yet subtle point. The history of the U.N. 
resolutions before the war is quite a complicated one that's 
easily mischaracterized. The United States and U.K. sold 
Resolution 1441 to the Security Council on the basis that it 
was the last chance for peace, it was the last chance for 
inspections to be successful, they did not sell it as authority 
for the use of force. This is proven by the fact that the U.K. 
delegation later was required to go back to the Security 
Council with a second draft resolution which British lawyers 
judged was necessary to get authority for the use of force. 
This was the so-called second resolution. The U.K. failed to 
get that resolution, and in negotiation they were asked 
explicitly, do you need this resolution to get authority for 
the use of force. I know this secondhand from my colleagues at 
the U.K. mission and from other friends who were at the 
Security Council at the time. By that time I had left the U.K. 
delegation. The U.K. failed to get that second resolution. In 
other words, if you go to the Security Council and fail to 
get--and you ask them for the authority of the use of force and 
you fail to get it, you do not have the authority for the use 
of force. And I think that sequence of events still sits in the 
minds of Security Council members, particularly the permanent 
five who of course are permanent members of the Security 
Council and were there then as they are today, and they 
remember very well. Sergey Lavrov, who has been the Russian 
permanent representative in the Security Council, and there's 
no doubt that he feels he was misled in that sequence of 
events, and that's why he says today that he has a sense of 
deja vu when he sees U.S. tactics in the Security Council.
    Mr. Van Hollen. I appreciate that, because I think that our 
own actions with respect to the Iraq at the United Nations have 
clearly undermined our ability to go back to the Security 
Council to get the kind of action that we want to take on 
economic sanctions with respect to Iran, and it's going to hurt 
our ability in the future in dealings with Iran.
    You mentioned in your testimony that at some point--and I 
understand the shortcomings with respect to the sanctions of 
Iraq and the fact they weren't targeted, as you explain in your 
testimony. But you mention that we believe sanctions had at 
some point--your testimony was that they had achieved--largely 
achieved success in terms of at least the goal of preventing 
Saddam Hussein and Iraq from rearming and developing weapons of 
mass destruction, and that was sort of the private consensus 
along the British and U.S. Governments at the time. Could you 
comment further on that?
    Mr. Ross. I'm still covered by the Official Secrets Act in 
Britain, which is a rather Draconian piece of legislation that 
prevents me from talking about anything which I learned during 
my time as a British official, including my testimony to the 
Butler review, which is still covered by that act, and that led 
to my resignation. But all that notwithstanding, it was clearly 
the view within the British and U.S. Governments that Iraq was 
not substantially rearming for all the years I worked on the 
subject. I took part in the regular quarterly discussions 
between the U.S. State Department and the Foreign Office on 
Iraq, where of course the weapons inspections and Iraq's 
rearmament was the top of the agenda, and we would begin those 
talks by saying sanctions have been successful, Iraq is not 
rearming, there is no threat from Iraq. The claim that Iraq was 
a threat, which was made by my government and the U.S. 
Government from mid-2002 and onwards I believe was deeply 
misleading.
    Mr. Van Hollen. Thank you for your testimony.
    Dr. Lopez. If I might add to that, as someone who after 
1999 was deeply involved in the linkage between sanctions and 
inspections, our own research work in almost 200 private 
interviews confirm this, which is why a good colleague of mine 
and I published in Arms Control Today in September 2002 why we 
thought if you were to enter Iraq you would find weapons 
remnants only. We saw a significant shift at the State 
Department's request in February 2002, began work on the Smart 
Sanctions Resolution--we saw a significant shift in thinking at 
the highest levels of government, which moved from a widely 
accepted belief before 2001 until after about the effect of the 
sanctions. And I think there is more evidence to suggest rather 
than National Defense Estimates and others that it was fairly 
widely known among the expert community that these have taken a 
biting and devastating chunk out of Saddam's ability. In fact, 
the Oil-for-Food leakage money was used for political 
patronage, it was not used for production of materials, and 
that was well documented.
    Mr. Van Hollen. Thank you, thank you all.
    Mr. Shays. Dr. Lopez, it was also used to influence the 
French and the Russians, correct?
    Dr. Lopez. No, I think that's absolutely the case.
    Mr. Shays. There is so much that I want to ask you because 
I think there is so many elements here to be discussed and I 
don't want to get distracted. But I will tell you that when I 
went to visit with officials in Great Britain and France, in 
Turkey, in Jordan, in Israel, there was no question on the part 
of these government officials that Saddam had weapons of mass 
destruction. The only debate I got into with these officials 
before war broke out was there was some who said he wouldn't 
use it. And you know, I believe that even President Clinton 
believed that Saddam had weapons of mass destruction. I'm not 
in any way convinced that Hillary Clinton voted because George 
Bush thought that there would be weapons.
    The arrogance of this administration I think stems from the 
fact, Mr. Ross, that they actually thought after the war we 
would basically be able to stick it in front of people's faces 
and say, there it is now, what do you have to say for yourself. 
I remember in 1994 the challenge was we didn't think at that 
time they had a nuclear program. And when you had the head of 
the program, who had no longer been involved, claim he was part 
of it, the United States said there is no program and we don't 
know who you are, it wasn't until Saddam's two son-in-laws went 
to Jordan that they located it. So the irony is at one point we 
didn't think he had it when he had it, at another point there 
were a lot of people in government who thought he had it when 
he didn't have it. That's the irony. And so then what people 
were saying, you know, that he doesn't have it, I'll tell you 
my attitude was, well, you were wrong once the other way, I'm 
not gonna let you get away with it a second time.
    So at any rate, it is for me--I guess what I first want to 
ask is, give me some examples where comprehensive sanctions 
have worked and where so-called smart ones--I mean, I think 
there was a comprehensive, weren't there, against South Africa, 
weren't they fairly comprehensive?
    Mr. Ross. Well, in the case of South Africa, there were 
various financial sanctions. But comprehensive sanctions in the 
case of Iraq mean something much more severe; namely, a ban on 
all imports and exports.
    Mr. Shays. Food and everything.
    Mr. Ross. It was never including food or other humanitarian 
supplies. It is not accurate to claim that they covered those 
items; it was never supposed to cover those items.
    Mr. Shays. It was never supposed to----
    Mr. Ross. No. Those rules exempted----
    Mr. Shays. Well, let me back up then, just to make sure 
we're talking from the same foundation.
    So Saddam had food, he had medicine coming in, he just 
chose not to--he didn't have the means to purchase it, or he 
just chose not to get it to where he wanted--where we wanted it 
to go?
    Mr. Ross. They had to get approval for purchases on a case-
by-case basis for anything that they wanted to import. These 
things had to be approved by the 661 Committee of the Security 
Council. What this produced was a very cumbersome, bureaucratic 
and slow process. And as I'm sure you realize, an economy that 
can support a decent life for its citizens and a health care 
system requires much more than just imported drugs, it requires 
electricity, it requires functioning sewage systems, all of 
these things, and that infrastructure declined very rapidly 
after comprehensive sanctions were imposed in 1990. And the 
remedy didn't start to appear until the Oil-for-Food program 
was implemented in 1996.
    If I may, sir, I'd just like to return to your point where 
you introduced your question about WMD. I didn't say that Iraq 
had no WMD. It was our view within the British and U.S. 
Governments that Iraq had some WMD, we believe they had some 
remnants of the original program that they had been developing 
very vigorously up until the war of 1990. What I did say, 
however, was that we did not believe Iraq was a threat, and 
that is a very different thing. In order to be a threat you 
have to have, A, considerable stocks of weapons, and, B, the 
means to deliver them, and we did not believe that Iraq had the 
means to deliver them. They had approximately 12 dismantled 
SCUD missiles lying around somewhere, we thought; in fact, 
there turned out to be none. They had no effective air force--
--
    Mr. Shays. So the issue is potential possession of weapons 
of mass destruction, just not in any great quantity, and the 
delivery system to provide them.
    Mr. Ross. We did not, as I recall, believe they had 
substantial stocks of any WMD, chemical or biological or 
nuclear weapons. We believed that they had failed fully to 
account for their holdings and destruction of their previous 
stocks. Ambassador Bolton alluded to that point, they had 
failed to give us a credible account of their destruction of 
previous stocks. That did not mean that we believed they had 
substantial stocks. We had no evidence, intelligence or 
otherwise, that they had substantial stocks of weapons or the 
means to deliver them. On that basis our internal assessment 
was that Iraq was not a threat, and that was the case until I 
left the job in June 2002.
    Mr. Shays. Let me just say that I agree with Mr. Van Hollen 
that when you're wrong--I was wrong--that you lose credibility; 
the President lost credibility, I lost credibility, our Nation 
lost credibility. I mean, that just seems intuitively to be 
something I can accept.
    What I'm hearing you say, though, is that the sanctions 
against--so let me ask you this, and I'll ask you, Dr. Lopez, 
as well--Mr. Christoff, if I'm not in an area where you've done 
research, but if I am and haven't asked you, feel free to jump 
in. Is there anywhere--where have, if ever, comprehensive 
sanctions worked?
    Mr. Ross. I'm struggling to give you an example.
    Mr. Shays. Dr. Lopez.
    Dr. Lopez. The same. Remember the South African ones were 
only partly ascribed to by major trading states. Only Haiti, 
former Republic of Yugoslavia and Iraq are the comprehensive 
ones where actually everyone signs on. And the approach that we 
learned from that by 1994 was that not only the Western states, 
but the Council as a whole abandoned comprehensive sanctions 
because the level of punishment and devastation on the economy 
wasn't worth the political compliance we were getting. So we 
moved to more refined measurements.
    Mr. Shays. Mr. Christoff, do you have any comment on this?
    Mr. Christoff. No. I would just reiterate that when you 
look at Iraq in the Oil-for-Food Program, you can see where 
parts of the sanctions were effective. Comprehensively they 
were not effective, but when we focused on, as the United 
States and the U.K. did, holding about $5.5 billion of Oil-for-
Food contracts because of dual use items, that contributed to 
keeping WMD and dual use items out of Iraq.
    Mr. Shays. So comprehensive are not something that you've 
seen succeed or advocate. I get interested in the term 
``sanctions'' versus an ``embargo.'' Now, it strikes me that an 
embargo is one step beyond sanctions. Is an embargo where you 
literally just kind of ring the state and prevent people from 
coming in and out? I mean, in a sense that's kind of what I 
thought we were doing in Iraq. Are there cases where you can 
have smart embargo or targeted embargoes, or is an embargo by 
definition comprehensive?
    Mr. Ross. They're essentially, Mr. Chairman, the same 
thing. We would often refer to sanctions on Iraq as the oil 
embargo because oil was Iraq's biggest export and we were 
preventing the sale by Iraq, except through U.N. controlled 
means. So we would talk about the oil embargo as a different 
way of talking about sanctions, so I think the terms are 
interchangeable.
    Dr. Lopez. And in fact if I might add, Congressman, the 
commodity specific embargoes are the ones that seem to be not 
only the most enforceable, but most comprehensive. These are 
the ones that I think helped resolve the situation in Liberia 
and ones that really focused on blood diamonds in Angola and 
Sierra Leone, and the Council has found these to be quite 
effective.
    Mr. Shays. Do you believe--and this is obviously opinion 
here--do you believe that in order to achieve our objectives in 
both Iran and the Sudan, that we will need to have some--a 
target embargo program? And I'll start with you, Dr. Lopez. I 
mean, our objective, as I defined it, would be we don't want 
Iran to have a nuclear program, we don't want them to have 
weapons grade material. In Sudan, we want the support of the--
basically of the Arab Muslims in Sudan, we want the fighting 
and the genocide of the African Muslims to stop. And is 
sanctions the way we are going to achieve it, in your judgment, 
Dr. Lopez?
    Dr. Lopez. I think sanctions would be an effective way of 
achieving it in Sudan if this diplomatic effort of the last 
week seems to fail. I think we've had even more biting Security 
Council proposals on the table before the resolution of last 
week which imposed targeted sanctions on four individuals; 
there were 20 on the original list more than a year ago. I 
think that can be effective because it's an outcome of failed 
diplomacy that's occurred prior.
    My own reading, since you've asked for judgment, is that 
much more direct engagement by U.S. policymakers with the 
government of Iran ought to occur before we think about 
bringing this dispute to the Security Council.
    Mr. Shays. Meaning direct talks, one-on-one talks?
    Dr. Lopez. Yes. I think a U.S.-Iranian summit is called for 
because of the multiplicity of issues that separate us. For 
many people this is still about November 1979. It's not just 
about the development of the nuclear program, it's about frozen 
Iranian assets, it's about Iranian support of terrorism, it's 
about the future of the Shiites in that region. We have enough 
issues on the table with Iran that astute diplomacy held at the 
summit level may in fact take this off the exclusive 
prerogative of a President in Iran who will stand on a soapbox 
and continue to proclaim us as the bad guys.
    Mr. Shays. The challenge is that when the President 
authorized our Ambassador in Iraq to interact with the 
Iranians, other nations began to be very concerned that somehow 
we were going to do something outside their interests----
    Dr. Lopez. I understand that, but I think those states will 
continue to redefine their interests as they see a potential 
deadlock in the Security Council.
    Mr. Shays. OK. Mr. Ross, how would you respond?
    Mr. Ross. I more or less agree with George Lopez on both 
points. On Sudan, I think that targeted sanctions on the 
leadership of the Khartoum government and others involved in 
the genocide are absolutely warranted, but they do need to be 
calibrated contemporaneously with what's going on politically. 
You can't just punish without encouraging people--you can't 
just punish, you also have to encourage a political solution to 
what's going on in Darfur, but I think they should be 
threatened with sanctions. And if they don't comply then those 
sanctions should be imposed. I do think, however, it's not just 
United States, but Western efforts to get sanctions agreed on 
Sudan have been undermined by the ability of Sudan to argue 
that the United States and others are just seeking a kind of 
hegemonistic plan for the Middle East where they just want to 
invade countries and occupy them----
    Mr. Shays. And you think it's a viable--how do you assess 
that?
    Mr. Ross. I think it's a completely bogus argument, but the 
illegitimacy, as many see it, of the Iraq invasion has added to 
that argument, and that argument has considerable resonance in 
the Middle East.
    Mr. Shays. How about on Iran?
    Mr. Ross. On Iran, I agree with George Lopez. I've been 
troubled listening to the discussion this morning that we seem 
to see the relationship with Iran and its nuclear program as a 
sort of continuum, stepping from sanctions to the inevitable 
option of military force if sanctions fail. There is, of 
course, an alternative, which is called talking to the 
Iranians. I think that Iran has legitimate interests in 
developing nuclear power, I think they have legitimate security 
interests, and we should start to recognize that instead of 
just demonizing their leadership and insulting them. If you 
want them to cooperate, as we do, and we don't want to use 
military force--as I assume we don't--I don't really see much 
alternative to sitting down with them and working out a viable 
way forward where we can create a framework where their 
security interests are taken care of and our legitimate concern 
that they don't develop a nuclear weapon is also taken care of.
    Mr. Shays. Let me just pursue this a little bit. Given the 
kinds of comments that are made by the President of Iran, you 
believe that should compel us to dialog with them, make us feel 
that dialog would work out in a way that would benefit our 
interests? Just kind of give me a sense--I mean, by the way, he 
has said extraordinarily outrageous things.
    Mr. Ross. I agree; but it's not just me, but as you 
yourself commented, Mr. Chairman, your own Ambassador in 
Baghdad suggested dialog in Iran. You have interests in common, 
including stability in Iraq. You need Iranian help to stabilize 
Iraq, and indeed the broader Middle East area, if not the 
world. Iran has the potential to be enormously troublesome in 
the Middle East and globally. And I think that before pursuing 
what to my mind would be a pretty disastrous option of military 
force, you should consider talking to them.
    Mr. Shays. Let me just ask one more point--given there are 
just two of us here--one of my staffers wrote down--and I agree 
with it, but I'm going to read it. So sanctions and reform are 
completely separate? A corrupt, mismanaged United Nations, 
empowered and tolerated by member states, is just likely to 
craft effective targeted sanctions as well as well managed and 
accountable organizations. Does the credibility of the 
organization imposing--this is the question--does the 
credibility of the organization imposing the sanctions have 
nothing to do with the likelihood member states and others will 
respect them?
    Mr. Ross. Well, there seems to be a lot of confusion in the 
question, if I may say so without wanting to be rude.
    Mr. Shays. I'm claiming this statement. My staff wrote it, 
but I happen to buy into it.
    Mr. Ross. There seems to be endless confusion between the 
United Nations, as a sort of generic concept, and the member 
states. The U.N. Secretariat is tasked to implement things by 
the Security Council, which is composed of its member states. 
And as I said before, part of the obligation is implementing 
sanctions and policing them, and ensuring that our companies 
don't do trade with embargo regimes and all the rest of it. 
That is our responsibility as the governments of the member 
states of the United Nations, it is not the U.N. Secretariat's 
responsibility.
    However, with all of that----
    Mr. Shays. Let me just understand that. And we can take 
unilateral action as member states? How does that work?
    Mr. Ross. No, no, not unilateral actions. If U.N. sanctions 
are imposed by the Security Council, the legal responsibility 
falls on every national government of the U.N. to impose those 
sanctions and to police them and to make sure that their 
citizens and their companies don't abuse them.
    Mr. Shays. So what you're saying is then the U.N. basically 
has no ability to get member states to conform?
    Mr. Ross. The U.N. is its member states, the Security 
Council and indeed the 661 Committee on the Iraq sanctions, we 
would try and get member states to implement the sanctions. 
That was our responsibility at the Security Council.
    Mr. Shays. But once the member states agree to abide by 
them and they just don't abide by them, what is the 
alternative? Will we just blame the member states----
    Mr. Ross. Well, we found it very problematic. Those 
breaches, as they were called, sanctions breaches, would come 
to the 661 Committee, where we would try and impose--we would 
take the country's concern to task and try to encourage them to 
implement the sanctions, but we have very little real means to 
persuade them to see otherwise.
    Mr. Shays. And see, that's how I connect the dysfunction of 
the U.N.; to say that the member states have to abide by it, 
but then there's no mechanism.
    Mr. Ross. Well, that's one kind of dysfunction, certainly. 
I think once sanctions regimes start to crumble you've got real 
problems in propping them up. But I do think that is a separate 
question from the broader question of Secretariat reform, which 
you have addressed this morning. I do think that's important. 
I'm not decrying efforts to reform, I think they are all 
connected. And I think certainly if not in your mind, in the 
minds of the broader public the U.N. is one big thing, it's all 
connected, and if the U.N. has disgraced itself over Oil-for-
Food, I think it would be wise to reform itself to avoid such 
accusations in the future.
    Mr. Shays. I hear you. Thank you. My only problem with the 
question is my staff wrote it in such small type, knowing that 
would aggravate me.
    Mr. Lynch.
    Mr. Lynch. I want to followup on that. My question was on 
another matter, but I do want to followup. Like the chairman, I 
just came back from my fifth trip to Iraq and to Afghanistan as 
well, and I have to say that the difference between what I see 
on the ground in Afghanistan and what I see on the ground in 
Iraq is directly related to the participation of the U.N. When 
you're on the ground in Afghanistan, the presence of the U.N. 
there--and they've got jurisdiction over the northern and 
western parts of the country--the presence of the U.N. troops, 
U.N. vehicles definitely induces the imprimatur of a 
humanitarian effort there in Afghanistan, and the people 
respond to that.
    Now there are problems in Afghanistan, but clearly the 
situation in Afghanistan, even though they're desperately poor, 
only 6 percent of the people have electricity, Iraq much, much 
further ahead economically and development-wise, there is still 
great value in having the U.N. take the lead on that. And I 
appreciate it is the responsibility of each constituent 
government to enforce sanctions, but that collective effort is 
much, much greater than the individual components. And I do 
have to say that a lot of my constituents would say if that's 
not what the U.N. is for, what the hell is it for? And that's 
exactly why we pay our dues to the U.N. is because we want that 
collective strength as a community of nations. It legitimizes 
actions that might otherwise be suspect. And I dare say that at 
least in the case of Afghanistan, the fact that the U.N. is 
supporting the effort there and the British are handling the 
poppy eradication, the Germans are training the Afghani police 
department, the Canadians, the French, they're doing their part 
in individual government roles, but all as part of that larger 
program it has contributed mightily to the success there and 
the progress there, yet it is under the umbrella of the United 
Nations, and under NATO as well. So I just--I know it's a 
distinction you're making, but I still see tremendous value in 
having the U.N. as being the lead.
    Now----
    Mr. Christoff. Mr. Lynch, could I even----
    Mr. Lynch. Sure.
    Mr. Christoff. Just having come back from Iraq as well and 
spending some time with the international community in Amman, 
Jordan, I think there is a growing desire on the part of the 
specialized agencies, the IMF and the World Bank, to become 
more engaged in Iraq because what they bring are the kinds of 
specialized skills that the U.N. has traditionally brought, FAO 
with its agricultural skills, WHO with its health specialists, 
etc., UNDP and its development specialists. So there is a 
desire I think on the part, from what I heard when I was in 
Amman, of the international community to try and reengage with 
our efforts at reconstruction in Iraq. And you do see the 
contrast with NATO and other specialized agencies within 
Afghanistan.
    Mr. Ross. Well, I also completely agree with the point you 
made, Mr. Lynch. I set up the National Security Assistance 
Force in Afghanistan after the invasion by a Security Council 
resolution which I negotiated on the Security Council, and 
there's no doubt that the fact that it is seen as a 
multinational effort in Afghanistan contributes to the 
credibility of that effort and much to the stability of 
Afghanistan.
    Mr. Lynch. Dr. Lopez.
    Dr. Lopez. For all the difficulties we had in acquiring 
Security Council mandate before going into Iraq, maybe the 
equal tragedy is the decision by the United States to ask the 
Council for a singular designation as a belligerent occupier 
after the war when we had the opportunity to engage the 
international community substantially, and that's as sad a 
moment in the Security Council for me as early March 2003, when 
later on we were, in December 2003, in a position where we 
could have gone back to the Council and said, OK, now it's time 
to internationalize the effort, let bygones be bygones, and we 
systematically rejected that option. That was a sad moment.
    Mr. Lynch. I'll yield back.
    Mr. Shays. Thanks. And the gentleman is just yielding to me 
a second.
    These hearings do show my ignorance of certain issues, but 
I sure learn a lot in the process by exposing my ignorance.
    The implication is that had we not asked for this 
designation, your implication is that we could have asked what?
    Dr. Lopez. We had an opportunity to ask the Security 
Council to bless, after the fact, the occupation of Iraq by 
U.S. forces, but to multinationalize that force and 
particularly to multinationalize the reconstruction program. 
And my understanding of the way the events unfolded was that we 
asked for the belligerent occupier designation, which means 
that future elections and economic reconstruction would fall 
under the purview of the United States.
    Mr. Shays. The elections though were supervised by the 
commission, that was one of the extraordinary events--excuse 
me, I don't mean to claim your time. I'll come back. I 
appreciate it, Mr. Lynch.
    Mr. Lynch. And I appreciate it, Dr. Lopez.
    My question is, now, for example, by a hypothetical, I want 
to refer, Mr. Ross, to your piece in the Washington Post where 
you posit the rhetorical question, could sanctions be 
effectively used against Iran? And you go on to say that--and 
again I'm paraphrasing--that largely because of conditions 
precedent and which exist there now and within the current 
framework, it is unlikely to work. Let's assume, though, for 
the purpose of my question that the conditions precedent had 
been met, that there is consensus among the wider community 
that there is the urgency--I think you used the example if Iran 
were testing nuclear weapons and that it was a sense of urgency 
there, and there was a consensus among the U.N. that we needed 
to act, assuming those things, what would effective sanctions 
in your mind look like? What are the terms of those sanctions 
against Iran that might be effective? Because that may be the 
situation down the road that we're confronted with.
    Mr. Ross. The terms of the sanctions I think would be 
pretty clear, that you would want Iran to comply with its 
obligations under the Nonproliferation Treaty, to allow full 
access for the International Atomic Energy Agency, etc. Those 
would be the criteria that you would seek to demand. And the 
sort of means that you might introduce to the Security Council 
to achieve those demands would be things like targeted 
sanctions on the leadership of Iran, things like asset freezes, 
other financial sanctions, travel bans. I think an arms embargo 
is also a clear option for the Security Council since this 
would also be an issue of international peace and security.
    Mr. Lynch. OK. Those are the essential elements?
    Mr. Ross. Yes.
    Mr. Lynch. Mr. Christoff.
    Mr. Christoff. The only problem that I would have about 
targeted financial sanctions, I know that the U.N. and the 
international community is moving more toward targeted 
sanctions rather than comprehensive sanctions. When I talked 
with OPIC officials and Treasury officials about just trying to 
get countries to return assets to the former regime, one of the 
challenges that they always face in trying to put targeted 
sanctions on individuals is that when the sanction is announced 
and when it's eventually enforced can be a long time lag that 
would allow the individual to move those assets quickly. So I 
clearly believe that targeted sanctions are important, but the 
practicality sometimes of enforcing them can be difficult.
    Mr. Lynch. Right. Dr. Lopez.
    Dr. Lopez. I agree with everything that has been said by my 
two colleagues. The two colleges in the Iranian case would be, 
do you want to on the back of a strict arms embargo really 
expand what you consider dual use goods that can reinforce 
military goods already existing and expand things like Wasnauer 
lists and others to a large number of items.
    The second issue--and the greatest temptation, I think--is 
because Iran is heavily dependent on a precious and large scale 
export, the prospect for oil embargoes I think looms in the 
mind of many, although we know what both the humanitarian 
aspect of that would be and the effect on Western markets 
itself and Western consumer economies would be substantial. One 
of the histories of embargo success is that the imposers are 
willing to accept substantial costs. And the suggestion of 
embargoing Iranian oil would pose that question in new and 
significant ways in 2006 to the U.S. economy in particular that 
has not been posed before.
    Mr. Lynch. I am sort of cheating a little bit, because one 
of the factors that Mr. Ross has pointed out to is, one of the 
factors that is very important is the cooperation of 
neighboring states, so given the geopolitical situation there, 
and the fact that we don't have a financial intelligence unit 
in Amman and in a number of other major other financial centers 
around that area, would also present problems in terms of 
isolating that regime.
    Mr. Ross. I think it can be done with a will as long as you 
have the political consensus, and you are prepared to give it 
the sufficient technical attention. I mean, during the Iraq 
sanctions years, despite all the political rhetoric that our 
leaders paid to Iraq, we never set up a financial sanctions 
units on Iraq.
    I had frequent discussions with U.S. Treasury officials 
saying should we not set up should such a unit to target 
Saddam's illegal financial holdings, which were many, sitting 
in Swiss bank accounts, etc. He agreed. He felt we could do it. 
Such a unit would, we felt, be effective. I personally 
recommended it at several sessions of talks between British and 
American governments. It was never implemented.
    Dr. Lopez. It is really Security Council resolution 1483 in 
May 2003, after American forces had toppled the regime and 
actually imposes the asset freeze on Saddam Hussein's family 
and designated officials, because we were fearful of them 
fleeing the country and being able to get to assets is one of 
the ironies of the Iraqi case.
    Mr. Ross. I hate to correct you, George. There was, of 
course, an asset freeze before that. Comprehensive sanctions 
are included in all financial assets of the Iraqi regime. So 
from 1990 onward, no government was allowed to hold financial 
assets for the Iraqi regime. But we never did put any effort, 
nor did the U.N. collectively put any effort into enforcing 
that part of the comprehensive embargo.
    Mr. Lynch. Thank you, I yield back.
    Mr. Shays. I feel like we have, both of us have this golden 
opportunity to talk to the three of you. And I would like to go 
on a little bit longer here.
    I want to, first, know from all three of you, and maybe I 
am getting you out of your territory, Mr. Christoff in areas 
you can't respond. So don't feel like you need to.
    Do you believe that, just taking Iran first, it is an 
absolute imperative that we prevent Iran--or not, that we 
prevent, that somehow Iran does not move forward with its 
nuclear program, and the obvious fear that we have that they 
will develop a weapons grade material.
    One, do you think that is where they are headed, and two, 
do you think it is in the world's interest to prevent that? And 
I will start with you, Mr. Ross. And I am just trying to 
understand, you will understand why I am asking these 
questions.
    Mr. Ross. Sure. We don't yet know that is where Iran is 
headed. There is no conclusive proof of that. The latest IAEA 
report suggests that they have achieved a certain level of 
uranium enrichment, and indeed, they publicly avowed this 
themselves, and worryingly, they also denied the IAEA full 
access to their sites and to information about their program. 
This is concerning. And it does perhaps suggest that they have 
less altruistic goals in mind and the mere development of a 
civil nuclear program.
    Mr. Shays. Let me just pursue that with a point though, I 
mean, Russia, in particular, and Europe, seem surprised that 
this program was progressing as quickly as it had and that they 
had this program for 18 years, contrary to what they had 
claimed, correct?
    Mr. Ross. Russia is surprised of that did you say?
    Mr. Shays. Yes.
    Mr. Ross. I don't know I am afraid.
    Mr. Shays. Because the information we get is that one of 
the reasons we have some opportunity to deal with the Russians 
is that they feel that Iran has not been forthcoming to them. 
But that is not information that you----
    Mr. Ross. Well, it is clear that Iran has not been 
forthcoming to anybody. They are not being forthcoming to the 
IAEA. They need to be forthcoming to the IAEA.
    Mr. Shays. But had, for a number of years, had this program 
in development. So that certainly leads one to begin to 
question where they are headed if they had done this, at the 
same time, they claimed they never were. Their credibility 
clearly is pretty low.
    Mr. Ross. I agree with that, their credibility would be 
wonderfully increased if they were to allow the IAEA full 
access.
    Mr. Shays. Dr. Lopez.
    Dr. Lopez. This speaks to the question of what is the 
immediate goal. I think IAEA access is the goal. And continued 
dialog with Iranians about the pace of development of their 
civilian program and the distinction between a civilian energy 
program and a weapons producing program is critical. And what 
shifted, I think, in the diplomatic dialog and particularly in 
the U.S. foreign policy dialog over the last 3 months has been 
a leapfrogging over those important steps to the notion that it 
is important for us to deny Iran a weapon.
    Senators that I have a great deal of respect for says there 
are two dangerous things that loom before us, a U.S. attack on 
Iranian facilities, and a Iranian development of a weapon, as 
if those are the only two choices. And I think the issues that 
lie before us are that we have a country that is now continuing 
to back away from international inspections to which it had 
been a part up to now, even while it did, on occasion, falsify 
information and withhold information.
    Mr. Shays. Aren't you being really generous when you say 
``on occasion?''
    Dr. Lopez. Generous, sir, because the stakes are too high.
    Mr. Shays. No, you don't want to be generous. You want to 
be accurate. And with all due respect, I was kind of saying I 
am agreeing with these folks in front of me, and now I am 
beginning to think--and I admit you lose your credibility when 
you say Saddam has a weapons program and he doesn't, so I am 
going to have to live with that. But I feel like we are being a 
bit naive and extraordinarily generous to Iran to suggest that 
18 years of developing a program to which the world was not 
aware of, and now is aware of, that we can't draw certain 
conclusions. The trend line is in, clearly, the wrong 
direction. Am I wrong about that?
    Dr. Lopez. No. I think the trend line is in the direction 
you pointed. But we need to cut it by three important facts. 
One, the technical capacity, as far as we can estimate from all 
intelligence sources, is still relatively low for the 
production of a real weapon.
    I go back to what Carne said before, which I think is 
critical in terms of the balance between Iraq and Iran is I am 
worrying much more about the delivery capability of the 
Iranians, that is, they have systems that can deliver weapons 
rather than where they really are with the development of 
weapons of mass destruction.
    Mr. Shays. See, the last thing I care about--the last 
thing--I care less about delivery, because I believe that a 
weapons grade material in the hands of, I don't look for a 
signature item coming to the United States or wherever. I look 
for it in a different direction.
    But Mr. Ross, the Iranians have no credibility as it 
relates to this issue, clearly, correct? I mean, 18 years of a 
program that were doing undercover are now being exposed, they 
are saying they are moving straight ahead.
    The trend line is clearly in the wrong direction, whether, 
so, I am just asking the next question, which is, we don't want 
them to develop weapons grade material, clearly.
    Now, to what extent would you be suggesting it would be 
nice that they didn't do it, we need to work hard that they 
don't do it, or it is absolutely imperative that they don't do 
it?
    Mr. Ross. I think it is extremely concerning that Iran 
might be developing a nuclear weapon, particularly with the 
current regime. I think the concern about it is entirely 
legitimate, and they have very little credibility in the 
disclosures that they have made. But you then need to ask 
yourself if you assume that they may be developing a nuclear 
weapon, what are you going to do about it? You have to look at 
why they may be developing a nuclear weapon.
    They are now adjacent to a country which is still largely 
controlled by the world's superpower which itself is armed with 
nuclear weapons.
    Israel is armed with nuclear weapons. More and more 
countries in their neighborhood, India, Pakistan are armed with 
nuclear weapons.
    They may have serious security concerns of their own, 
particularly when confronted by U.S. Government that seems bent 
on regime change and is fairly abusive in the way it describes 
the Iranian regime calling them part of the axis of evil or 
whatever.
    In my view, whatever we feel about the Iranian regime, they 
do have legitimate security concerns that they should not be 
attacked, which may be why they are developing a nuclear 
weapon. If that is the case, you need to sit down with them and 
work out ways of satisfying these security concerns without 
them developing a nuclear weapon.
    Mr. Shays. Do you believe that Iran has used Hezbollah as 
its surrogate that they train and finance Hezbollah?
    Mr. Ross. I worked on the Middle East peace process as it 
was then known in happier days in the mid 1990's and Iran----
    Mr. Shays. You look so young to me I am trying to imagine.
    Mr. Ross. No. I am antique.
    The Iran----
    Mr. Shays. How many years were you in the foreign service?
    Mr. Ross. 15. Iran was working, was certainly supporting 
Palestinian Muslimic Jihad and Hezbollah at that time. I have 
to say, though, at that time the British government, of which I 
was then a part, did not regard Hezbollah as a terrorist 
organization. They regarded them as a resistance organization 
because Hezbollah at that time was primarily directed at ending 
Israeli occupation of southern Lebanon. That has since changed. 
And Hezbollah has not fully recognized Israel's right to exist 
and is still supporting some questionable activities.
    Mr. Shays. You are being a little generous here. I wish you 
would be a little more forthcoming in terms of----
    Mr. Ross. The truth is, I don't know about what Hezbollah 
is doing today or whether Iran is supporting it today. I worked 
on that specific issue in the mid 1990's so my information is 
somewhat out of date.
    Mr. Shays. But the bottom line to this whole dialog is what 
I think I am taking from this conversation is that you believe 
direct talks need to take place with both governments, Sudan 
and Iran, before there is dialog of sanctions and that you 
believe that sanctions need to be targeted such as with Iran 
what would be effective? I will tell you two that I think will 
be and maybe you can tell me more. Not allowing their 
scientists to study abroad, their scholars, not allowing their 
airline to land anywhere by air, but Syria. Things like that. 
What other types of ways?
    Mr. Ross. I mentioned in answer to Mr. Lynch's question 
that financial sanctions, travel bans and arms embargo are 
things that you could consider for Iran. In terms of yes, we 
are----
    Mr. Shays. Let me quickly say, would they be successful 
giving China, Russian and some European nations----
    Mr. Ross. Well, in order to be successful, as I think all 
three of us have made clear, you need to have broad political 
support for them. I think before you will get broad political 
support for any sanctions, you need to show that you have 
exhausted all other means of addressing this problem with Iran. 
And I think that would include dialog.
    Ramping things up at the rather accelerated rate that the 
United States is doing, pushing things through the Security 
Council in a very determined and aggressive way in a time 
limited fashion is not the way to win political support.
    My recommendation would be that United States should take 
things a little bit slower and show that it is willing to 
address these issues by dialog before advancing more punitive 
measures.
    Mr. Shays. Do you believe that in order for diplomacy to 
work that you need to have the concern that you might use a 
military or do you think you just take military option off the 
table.
    Mr. Ross. I don't necessarily think that, although----
    Mr. Shays. Think what?
    Mr. Ross. I don't think that you should take the military 
option off the table, although I am appalled by military action 
in all cases. I think that some cases, it remains a necessary 
thing to have in your armory.
    Mr. Shays. Dr. Lopez, can you respond to that question?
    Dr. Lopez. I think that targeted sanctions in this case can 
be very effective. But I am recalling the Yugoslav case where 
in the second generation of sanctions, we decided that we were 
dealing on the top with a regime we wanted changed, but at mid 
levels and levels below were people who were reformers who we 
were trying to help.
    So as targeted as travel bans can sound and be, we even 
want to be more targeted within the imposition of that specific 
sanction. Because in fact, there were people we wanted to have 
assets. There were people we wanted to be able to travel. There 
were people we wanted to deal with because they were, in fact, 
opposed to the Milosevic regime. And I think it will be a real 
challenge in the case of forging Iranian sanctions to decide 
what will be the designated group of entities and individuals 
who will be subject to the targeted sanctions. It is not 
impossible. It is, in fact, very possible. But it will be able 
to strip from the Iranian leadership that kind of rally round-
the-flag effect which says, see, I told you, they are all 
against us. Look at what we are all suffering. If, in fact, all 
of them are not suffering from that, that is to our advantage.
    I think the second issue supporting again Carne's great 
statement about diplomacy is we have to decide, I think at the 
council level, and in the larger powers, just how serious are 
we going to take sanctions? You know, at one level in the late 
1980's, people kept saying to us, see sanctions on South Africa 
are not effective. By 1993 people said, wow, look at that 
sanctions case on South Africa.
    We were continually told throughout the 1990's, Saddam's 
robust actions, his hostility to the west, his hostility to 
inspectors, sanctions aren't working. By 2003, at the end of 
2003, we learned that, in fact, sanctions had worked, but we 
chose diplomatic and military means to go about it a different 
way.
    I think we have to broaden our thinking about sanctions. 
One of the things I noticed in the Iraqi sanction situation was 
every time things were interdicted at the border, rather than 
that being interpreted by political figures that sanctions were 
working, because we were catching these bad things, it was 
interpreted in one direction only, look how terrible this is, 
there must be thousands of things getting through because look 
what we caught this time and we only caught one. Every time 
inspectors found prohibited weapons and destroyed a chemical or 
biological facility, we believed there was even more hiding 
under Saddam's bed, rather than the position we were taking, 
which was it was actually working.
    So I think if we go ahead with Iranian sanctions, we have 
to go ahead with a degree of confidence and with an ability to 
give it a timeline where it might actually change policy.
    Mr. Shays. Let me say we are going to conclude here. I am 
struck with a bias that I still hold, and that is, you know, 
when people from Europe lecture us about diplomacy and 
multilateralism, and they say Germany and France we can talk 
with each other, to me that is like Connecticut and New York 
talking with each other. I view it as an economic union.
    I am left with this feeling that sanctions--in one level, 
Mr. Ross, I agree that there needs to be dialog, significant 
dialog and extended.
    I think I have learned to have a little more faith in the 
recognition that with Qaddafi, it was a long-term effort. So I 
think what I am hearing from here is that sanctions take a 
while.
    I just don't have any faith that Europe's heart or Russia's 
heart or China's heart is in having sanctions. I think it is 
with Iran, I think it is a message that Iran it ain't going to 
happen so they don't need to fear them.
    And then what I fear is that the only thing left on the 
table is military option, which I don't like at all. And I am 
left with a feeling that if Europe doesn't want there to be a 
military option, they have to recognize that the dialogs about 
sanctions have to be real and we have to, we have to recognize 
without sanctions you leave very little on the table. That is 
kind of what I am left with.
    Let me end by saying, is there a question we should have 
asked but we didn't? Is there a question that you would have 
wanted to have responded to that you think we need to put on 
the table? Start with you, Mr. Christoff.
    Mr. Christoff. Mr. Chairman, a couple of points, why we 
need negotiations with Iran not just on the nuclear issue but 
we need Iran to try to help us deal with the situation in Iraq.
    I think, as my boss testified last week before you, and we 
talked about the security situation in Iraq, clearly the 
Iranian influence in the southern part of Iraq, the army and 
militias all with Iranian influences is an important reason why 
we need to continue types of negotiations with Iran.
    Second point is that I don't want to completely divorce 
that reform with sanctions, which, is, in many respects, a 
topic of interest.
    I think if you want to have effective sanctions in the 
future, you have to engage in certain reforms. We have to have 
reform of the oversight services with the United nations, we 
have to strengthen the internal auditors. We have to revamp 
procurement. If you have an Oil-for-Food program like situation 
in the future, you are going to have to have a U.N. that has 
those types of strength and controls.
    Mr. Shays. Mr. Ross.
    Mr. Ross. I don't disagree with the thrust of what you 
said, Mr. Chairman. I think my difference with you would be 
over the timing.
    At present, you are right, the international consensus does 
not exist to impose sanctions on Iran because above all, there 
is no compelling evidence that they are developing a nuclear 
weapon. But that may change.
    And what I would urge is the more patient approach to this 
continuum of dialog of sanctions and then armed force.
    I am worried about is that the U.S. administration is 
currently rushing us through that line. And saying, oh look, 
the Europeans and Chinese won't support sanctions, therefore we 
have no alternative but to go to military force.
    I think this is hasty and unwise, not least because I think 
military force would be pretty disastrous all around, not just 
for the Iranians, but also for us. So I would, therefore, urge 
that in order to build that political consensus, there are 
other options to be tried first, and a more patient effort is 
made to buildup the body of evidence and the record of Iranian 
noncompliance with the Security Council's demands, then, at the 
end of that, you would have, I think, the consensus you would 
need.
    Mr. Shays. Thank you.
    Dr. Lopez. I completely concur with that. I underscore some 
of the great points you and others in the subcommittee made 
about Sudan, I think we are in a critical moment with regard to 
Sudanese sanctions and the ability to send a clear message to 
the government of Khartoum that the international community now 
means business, enough is enough.
    And there are ways in which an earlier discussion of 
sanctions in Sudan we let the Khartoum government waive the new 
peace treaty before us and say, well, we don't know if we are 
able to actually follow through if we are so constrained by 
sanctions, and the international community backed away.
    Now I think that process has a dynamic of its own. It is 
separate from the conflict in West Darfur. It is separate from 
the humanitarian crisis. And I think the international 
community has to get backbone and move ahead with more 
sanctions in the Sudan area.
    Mr. Shays. Do you have any question?
    Mr. Lynch. No. I think these people have suffered enough.
    Mr. Shays. Well let me say, Mr. Christoff, Mr. Ross and Dr. 
Lopez, you have been a wonderful panel, and I thank you for 
your taking the time with us this morning. Thank you very much.
    Mr. Ross. Thank you. It is an honor.
    [Whereupon, at 1:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
